No.
IN THE

Supreme Court of the United States
ERICKA RICHARDSON AND LUIS A. SILVA, ON BEHALF
OF THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,

Petitioners,
v.
COVERALL NORTH AMERICA, INC., AND
SUJOL LLC, ABC CORPS., JANE & JOHN DOES 1-20,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI
Shannon Liss-Riordan, Counsel of Record
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
Ravi Sattiraju, Esq.
SATTIRAJU & THARNEY LLP
50 Millstone Road, Building 300, Suite 202
East Windsor, NJ 08520
Anthony Marchetti, Esq.
MARCHETTI LAW, P.C.
317 Delsea Drive
Sewell, NJ 08080
Counsel for Petitioners
November 2020

i
QUESTIONS PRESENTED FOR REVIEW
1. Whether incorporation by reference of a separate
set of arbitration rules constitutes clear and unmistakable evidence of intent to delegate the
threshold question of arbitrability to an arbitrator
in a case involving an unsophisticated party presented with an adhesive agreement;
2. Whether state or federal law should govern the
determination as to whether an arbitration
agreement clearly and unmistakably delegated
the threshold question of arbitrability to an arbitrator.

ii
PARTIES TO THE PROCEEDING
Petitioners are Ericka Richardson and Luis A.
Silva on behalf of themselves and all others similarly
situated.
Respondents are Coverall North America Inc. and
Sujol LLC.

i
RELATED PROCEEDINGS
Richardson v. Coverall N. Am. Inc., No. 3:18-cv00532, U.S. District Court for the District of New
Jersey. Judgment entered Sept. 27, 2018.
Richardson v. Coverall N. Am. Inc., No. 18-3393, 183399, U.S. Court of Appeals for the Third Circuit.
Judgment entered Aug. 19, 2020, petition for
reh’g denied, June 30, 2020.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ........................... ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 6
JURISDICTION.......................................................... 7
STATUTES INVOLVED ............................................ 7
STATEMENT OF THE CASE .................................... 7
A. This Court’s Decisions Regarding
Delegating Arbitrability to an Arbitrator ... 7
B. Factual and Procedural Background ........ 11
REASONS FOR GRANTING THE WRIT ............... 15
I.

The Third Circuit’s Decision Deepens a
Split in Authority Regarding Whether an
Unsophisticated Party Should Be
Presumed to “Clearly and Unmistakably”
Delegate Arbitrability Through Mere
Incorporation of Arbitration Rules............ 15

II. The Third Circuit’s Decision Sharpens a
Circuit Split Over Whether the “Clear
and Unmistakable” Standard is Governed
by State or Federal Law ............................ 20

iii
III. The Questions Presented Are Important,
Recurring, and Ripe for Review ................ 25
CONCLUSION.......................................................... 31

iv
APPENDIX
Court of Appeals Opinion,
dated April 28, 2020 .......................................... 1a
District Court Memorandum & Order, dated
September 27, 2018............................................ 9a
Court of Appeals Order Denying Petition for
Rehearing en Banc, dated June 30, 2020........ 33a
Federal Arbitration Act, 9 U.S.C. §§ 2, 3, 4 ... 35a
American Arbitration Association Commercial
Rule, R-7 ........................................................... 39a

v
TABLE OF AUTHORITIES
Cases
Allstate Ins. Co. v. Toll Bros., Inc.
171 F. Supp. 3d 417 (E.D. Pa. 2016) ................ 3, 19
Alpert, Goldberg, Butler, Norton & Weiss, P.C.
v. Quinn
410 N.J. Super. 510 (App. Div. 2009), certif.
denied, 203 N.J. 93 (2010) .................................... 22
Arnold v. Homeaway, Inc.
890 F.3d 546 (5th Cir. 2018) ......................... passim
AT & T Techs., Inc. v. Commc'ns Workers of
Am.
475 U.S. 643, 106 S. Ct. 1415, 89 L. Ed. 2d
648 (1986)................................................................ 7
Atalese v. U.S. Legal Services Corp.
219. N.J. 430 (2014), cert. denied 135 S. Ct.
2804 (2015)............................................................ 22
Aviles v. Quik Pick Express, LLC
2015 WL 9810998 (C.D. Cal. Dec. 3, 2015),
vacated on other grounds, 703 F. App'x 631
(9th Cir. 2017) ......................................................... 3
Awuah v. Coverall N. Am., Inc.
554 F.3d 7 (1st Cir. 2009) ................................. 4, 20
Bacon v. Avis Budget Group, Inc.
357 F. Supp. 3d 401 (D.N.J. 2018) ....................... 23

vi
Blanton v. Domino's Pizza Franchising LLC
962 F.3d 842 (6th Cir. 2020) ............................ 5, 23
Chesapeake Appalachia, LLC v. Scout
Petroleum, LLC
809 F.3d 746 (3d Cir. 2016) ............................ 14, 16
Chong v. 7-Eleven, Inc.
2019 WL 1003135 (E.D. Pa. Feb. 28, 2019) ..... 3, 19
Contec Corp. v. Remote Sol., Co.
398 F.3d 205 (2d Cir. 2005) .............................. 2, 15
Dish Network L.L.C. v. Ray
900 F.3d 1240 (10th Cir. 2018) ............................ 24
First Options of Chicago, Inc. v. Kaplan
514 U.S. 938, 115 S. Ct. 1920, 131 L. Ed. 2d
985 (1995)....................................................... passim
Gibson v. Berryhill
411 U.S. 564 (1973) .............................................. 27
GNH Grp., Inc. v. Guggenheim Holdings,
L.L.C.
2020 WL 4287358 (D. Del. July 27, 2020) ........... 23
Henry Schein, Inc. v. Archer & White Sales,
Inc.
139 S. Ct. 524, 202 L. Ed. 2d 480 (2019) ..... 1, 2, 24
In re Little
610 B.R. 558 (D.S.C. 2020) ............................... 3, 19

vii
Ingalls v. Spotify USA, Inc.
No. C 16-03533 WHA, 2016 WL 6679561
(N.D. Cal. Nov. 14, 2016)........................................ 3
Meadows v. Dickey’s Barbecue Rests., Inc.
144 F. Supp. 3d 1069 (N.D. Cal. 2015) ............ 3, 19
Morgan v. Sanford Brown Inst.
225 N.J. 289 (2016) ............................... 5, 11, 14, 21
Oracle Am., Inc. v. Myriad Grp. A.G.
724 F.3d 1069 (9th Cir. 2013) .................... 2, 17, 28
Paragon Litig. Trust v. Noble Corp. PLC (In re
Paragon Offshore PLC)
588 B.R. 735 (Del. Bankruptcy Ct. 2018) .............. 3
Petrofac, Inc. v. DynMcDermott Petroleum
Operations Co.
687 F.3d 671 (5th Cir. 2012) ............................ 1, 15
Qualcomm Inc. v. Nokia Corp.
466 F.3d 1366 (Fed. Cir. 2006) ......................... 1, 15
Rent-A-Ctr., W., Inc. v. Jackson
561 U.S. 63, 130 S. Ct. 2772, 177 L. Ed. 2d
403 (2010)....................................................... passim
Richardson v. Coverall N. Am., Inc.
811 F. App'x 100 (3d Cir. 2020).............................. 6
Richardson v. Coverall N. Am., Inc.
No. CV18532MASTJB, 2018 WL 4639225
(D.N.J. Sept. 27, 2018) ........................................... 6

viii
Simply Wireless, Inc. v. T-Mobile US, Inc.
877 F.3d 522 (4th Cir. 2017) ............................ 2, 17
Southland v. Keating
465 U.S. 1 (1984) .................................................. 29
Stolt-Nielsen S.A. v. AnimalFeeds Int'l Corp.
559 U.S. 662, 130 S. Ct. 1758, 176 L. Ed. 2d
605 (2010).............................................................. 25
Stone v. Wells Fargo Bank, N.A.
361 F. Supp. 3d 539 (D. Md 2019) ......................... 3
Takiedine v. 7-Eleven, Inc.
2019 WL 934994 (E.D. Pa. Feb. 25, 2019) ............. 3
Terminix Int'l Co., LP v. Palmer Ranch Ltd.
P'ship
432 F.3d 1327 (11th Cir. 2005) ........................ 2, 20
Tompkins v. 23andMe, Inc.
2014 U.S. Dist. LEXIS 88068 (N.D. Cal.
2014), aff'd, 840 F.3d 1016 (9th Cir. 2016) ............ 3
Tumey v. Ohio
273 U.S. 510 (1927) .............................................. 27
Volt v. Board of Trustees of Leland Stanford
Junior Univ.
489 U.S. 468, 109 S. Ct. 1248, 103 L. Ed. 2d
488 (1989).............................................................. 25
Ward v. Monroeville
409 U.S. 57 (1972) ................................................ 27

ix
Wells Fargo Advisors, LLC v. Sappington
884 F.3d 392 (2d Cir. 2018) ........................ 5, 24, 29

Statutes
28 U.S.C. § 1254 .......................................................... 7
9 U.S.C. § 1 .................................................................. 1
9 U.S.C. § 2 .................................................................. 7
9 U.S.C. § 3 .................................................................. 7
9 U.S.C. § 4 .................................................................. 7

Other Authorities
Faulkner, Richard and Philip J. Loree Jr.
Schein’s Remand Decision: Should Scotus
Review The Provider Rule Incorporation-beReference Issue? 38 ALTERNATIVES, 5 (May
2020) ...................................................................... 27

Rules
AAA Rule R-7 .............................................................. 7

INTRODUCTION
Petitioners Ericka Richardson and Luis Silva
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Third Circuit in this case. In recent years,
this Court has addressed a number of cases construing the Federal Arbitration Act, 9 U.S.C. § 1, et seq.,
and in particular, the question of who should decide
the threshold question of whether a dispute must be
arbitrated ̶ a court or an arbitrator. See, e.g., Henry
Schein, Inc. v. Archer & White Sales, Inc., 139 S. Ct.
524, 202 L. Ed. 2d 480 (2019); Rent-A-Ctr., W., Inc. v.
Jackson, 561 U.S. 63, 130 S. Ct. 2772, 177 L. Ed. 2d
403 (2010); First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938, 115 S. Ct. 1920, 131 L. Ed. 2d 985
(1995). This Court has articulated the stringent requirement that any delegation to an arbitrator of
threshold questions of arbitrability, such as the scope
and validity of an arbitration agreement, must be
“clear and unmistakable” to overcome the presumption in favor of judicial resolution of such questions.
First Options, 514 U.S. at 944. Despite the rigorous
“clear and unmistakable” standard announced by
this Court, many federal courts have issued decisions
holding that a mere passing reference to a separate
set of arbitration rules that contain a delegation provision suffices as evidence of a clear and unmistakable intent to delegate threshold arbitrability issues to
an arbitrator. See, e.g., Petrofac, Inc. v. DynMcDermott Petroleum Operations Co., 687 F.3d 671, 673
(5th Cir. 2012) (two oil companies negotiated a contract with one another); Qualcomm Inc. v. Nokia
Corp., 466 F.3d 1366, 1368 (Fed. Cir. 2006) (patent
infringement case between two telecommunications
corporations); Terminix Int'l Co., LP v. Palmer Ranch

2
Ltd. P'ship, 432 F.3d 1327, 1329 (11th Cir. 2005);
Contec Corp. v. Remote Sol., Co., 398 F.3d 205 (2d
Cir. 2005) (corporation sought to compel arbitration
of indemnification dispute with manufacturer).
This case raises an extremely important question for which a split has developed below, regarding
whether the incorporation by reference of a separate
set of arbitration rules is sufficient to overcome the
strong presumption in favor of judicial resolution of
arbitrability issues where one party is an unsophisticated layperson, presented with an adhesive agreement in the consumer or employment context (as opposed to a sophisticated commercial entity negotiating with another sophisticated entity). Some lower
courts have recognized a difference in this situation
between contracts negotiated by sophisticated legal
entities and adhesive contracts accepted by unsophisticated laypeople. See Simply Wireless, Inc. v. TMobile US, Inc., 877 F.3d 522, 529 (4th Cir. 2017)
(the parties’ clear and unmistakable intent was
demonstrated when “two sophisticated parties expressly incorporate into a contract JAMS Rules”)
(emphasis added) abrogated in part by Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524
(2019); Oracle Am., Inc. v. Myriad Grp. A.G., 724
F.3d 1069, 1075, n. 2 (9th Cir. 2013) (“We hold that
as long as an arbitration agreement is between sophisticated parties to commercial contracts, those
parties shall be expected to understand that incorporation of the UNCITRAL rules delegates questions of
arbitrability to the arbitrator…..”) (emphasis add-

3
ed). 1 Other courts have not recognized this distinction, simply following prior decisions, which held that
mere incorporation by reference of arbitration rules
is enough to constitute clear and unmistakable delegation, notwithstanding the fact that one party lacks
sophistication and was presented with an adhesive
agreement referencing rules they have no reason to
recognize or understand. See, e.g., Arnold v. Homeaway, Inc., 890 F.3d 546, 552 (5th Cir. 2018); Awuah
––––––––––––––––––––––––
Drawing on this distinction, a number of lower
courts have expressly found there was not clear and
unmistakable evidence of delegation through incorporation by reference of separate arbitration rules in
cases involving unsophisticated laypeople. See In re
Little, 610 B.R. 558, 567-68 (D.S.C. 2020); Takiedine
v. 7-Eleven, Inc., 2019 WL 934994, at *9 (E.D. Pa.
Feb. 25, 2019); Chong v. 7-Eleven, Inc., 2019 WL
1003135, at *10 (E.D. Pa. Feb. 28, 2019); Stone v.
Wells Fargo Bank, N.A., 361 F. Supp. 3d 539 (D. Md
2019); Paragon Litig. Trust v. Noble Corp. PLC (In re
Paragon Offshore PLC), 588 B.R. 735 (Del. Bankruptcy Ct. 2018); Allstate Ins. Co. v. Toll Bros., Inc.,
171 F. Supp. 3d 417, 427-29 (E.D. Pa. 2016); Ingalls
v. Spotify USA, Inc., No. C 16-03533 WHA, 2016 WL
6679561, at *4 (N.D. Cal. Nov. 14, 2016); Aviles v.
Quik Pick Express, LLC, 2015 WL 9810998, at *6
(C.D. Cal. Dec. 3, 2015), vacated on other grounds,
703 F. App'x 631 (9th Cir. 2017); Meadows v. Dickey’s
Barbecue Rests., Inc., 144 F. Supp. 3d 1069 (N.D. Cal.
2015); Tompkins v. 23andMe, Inc., 2014 U.S. Dist.
LEXIS 88068 (N.D. Cal. 2014), aff'd, 840 F.3d 1016
(9th Cir. 2016).
1

4
v. Coverall N. Am., Inc., 554 F.3d 7, 12 (1st Cir.
2009).
In the decision below, the Third Circuit held
that the plaintiff ̶ an immigrant janitor who does not
read or understand English well and who signed an
adhesive agreement in order to obtain work from the
Defendants ̶ had nonetheless “clearly and unmistakably” agreed to delegate the threshold issue of
whether his dispute was arbitrable because the
agreement he signed contained a passing reference to
the American Arbitration Association (“AAA”) Commercial Rules, which permit an arbitrator to decide
“the existence, scope, or validity of the arbitration
agreement or [] the arbitrability of any claim or counterclaim.” App.39a. These rules were not included in
the agreement itself, nor was a copy of the rules provided to him. See 18-3393, JA094-95, § 21(A). The
Third Circuit’s decision is a bridge too far that simply
does not comport with this Court’s “clear and unmistakable” standard. To allow this decision to stand,
and allow this lower court split to continue, would
effectively eviscerate the longstanding requirement
that arbitrators may decide whether a dispute is arbitrable only if both parties actually intended for
that threshold issue itself to be arbitrated.
This case highlights the absurdity of the assumption that reference to arbitration rules in an
agreement constitutes “clear and unmistakable” delegation of arbitrability to an arbitrator. To claim
that an immigrant worker who does not speak English well would know that he was agreeing to let an
arbitrator decide the scope of his or her own authority through reference to a set of rules that were never
presented to him is simply a legal fiction. As set

5
forth above, although some courts have held that incorporation of the arbitration rules constitutes “clear
and unmistakable” evidence of delegation, these decisions have typically involved sophisticated, commercial parties. This case presents the Court with a
critical opportunity to address the growing split between lower courts regarding whether it is relevant
that one party is unsophisticated.
The Third Circuit opinion in this case also presents a second important issue about the proper interpretation of the “clear and unmistakable” rule,
which warrants this Court’s attention. Specifically,
the decision sharpens a conflict among the Circuit
Courts of Appeal regarding whether the “clear and
unmistakable” standard for delegating arbitrability
presents a question of federal or state law. Compare
Blanton v. Domino's Pizza Franchising LLC, 962
F.3d 842, 846 (6th Cir. 2020) (holding that the “clear
and unmistakable” question is one of federal law)
with Wells Fargo Advisors, LLC v. Sappington, 884
F.3d 392, 396 (2d Cir. 2018) (holding that the question is one of state law).
In its opinion below, the Third Circuit stated
that the question of whether a court or arbitrator
should determine arbitrability must be governed by
New Jersey state law, see App.4a-5a. However, the
court then inexplicably did not apply or even cite controlling New Jersey Supreme Court precedent regarding incorporation by reference and contract formation. Indeed, the court’s holding conflicts with decisions of the New Jersey Supreme Court, such as
Morgan v. Sanford Brown Inst., 225 N.J. 289 (2016),
which held that mere incorporation by reference of a

6
separate set of arbitration rules is not sufficient to
satisfy the requirements of mutual assent under New
Jersey contract law. Thus, the Third Circuit’s holding in this case underscores the confusion among the
Courts of Appeal regarding the application of this
Court’s “clear and unmistakable” standard, as the
court here stated that it would apply state law but
then actually applied federal law, by only citing to
federal precedents and ignoring controlling New Jersey law regarding incorporation by reference.
In sum, this Court should take the opportunity
presented by this case to clarify whether or not a
party’s relative sophistication plays any role in determining whether mere incorporation of a set of arbitration rules meets the high burden to overcome
the presumption in favor of judicial resolution of
gateway issues and shows “clear and unmistakable”
delegation and to clarify whether the “clear and unmistakable” standard for delegating arbitrability to
an arbitrator is a question of state law or federal law.
OPINIONS BELOW
The decision of the United States Court of Appeals for the Third Circuit is available at Richardson
v. Coverall N. Am., Inc., 811 F. App'x 100 (3d Cir.
2020), and is reproduced in the appendix at App.2a8a. The decision of the United States District Court
for the District of New Jersey, dated September 27,
2018, is available at Richardson v. Coverall N. Am.,
Inc., No. CV18532MASTJB, 2018 WL 4639225
(D.N.J. Sept. 27, 2018), and is reproduced in the appendix at App.9a-32a.

7
JURISDICTION
The Court of Appeals entered its judgment on
April 28, 2020. App.1a. A petition for rehearing en
banc was filed on May 12, 2020, and was subsequently denied on June 30, 2020. App.34a. Pursuant to
this Court’s March 19, 2020 Order extending the
deadline to file a petition for writ of certiorari to 150
days from the date of the order denying a timely petition for rehearing, this petition is due on or before
November 27, 2020. This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTES INVOLVED
The Federal Arbitration Act, 9 U.S.C. §§ 2-4, is
reproduced at App.35a-38a. Furthermore, Rule R-7
of the American Arbitration Association Commercial
Rules and Mediation Procedures (“AAA Rules”),
which is discussed herein, is reproduced at App.39a.
STATEMENT OF THE CASE
A. This Court’s Decisions Regarding Delegating
Arbitrability to an Arbitrator
The Federal Arbitration Act (“FAA”) imbues
courts with the responsibility for deciding whether a
given dispute is subject to arbitration. See 9 U.S.C. §
3. This Court has previously held that “the question
of arbitrability…is undeniably an issue for judicial
determination.” AT & T Techs., Inc. v. Commc'ns
Workers of Am., 475 U.S. 643, 649, 106 S. Ct. 1415,
1418, 89 L. Ed. 2d 648 (1986). Thus, “[u]nless the
parties clearly and unmistakably provide otherwise,
the question of whether the parties agreed to arbi-

8
trate is to be decided by the court, not the arbitrator.” Id.
“When deciding whether the parties agreed to
arbitrate a certain matter (including arbitrability),
courts generally … should apply ordinary state-law
principles that govern the formation of contracts.”
First Options, 514 U.S. at 944. However, one “qualification” to this rule is that “[c]ourts should not assume that the parties agreed to arbitrate arbitrability unless there is clear and unmistakable evidence
that they did so.” Id. (internal quotation omitted).
This “clear and unmistakable” evidence can be satisfied by the inclusion of an express delegation clause,
stating that the parties intend for the arbitrator to
have the exclusive authority to decide questions of
arbitrability, including “any claim that all or any
part of this agreement is void or voidable.” Rent-ACtr., W., Inc., 130 S. Ct. at 2774.
This Court’s “clear and unmistakable” standard operates as a “qualification” to state law governing the interpretation of contracts. First Options,
514 U.S. at 944. It has been described “as a type of
‘revers[e] presumption’—one in favor of a judicial, rather than an arbitral, forum.” Rent-A-Ctr., 561 U.S.
at 79 (quoting First Options, 514 U.S. at 945). Reversing the presumption in favor of compelling arbitration in this context is “understandable” because
the “who (primarily) should decide arbitrability question—is rather arcane” and “[a] party often might not
focus upon that question or upon the significance of
having arbitrators decide the scope of their own powers.” First Options, 514 U.S. at 945. Thus, the inquiry regarding whether the parties have clearly and

9
unmistakably agreed to delegate arbitrability should
be focused on the “the parties’ intent” and is “an interpretive rule based on an assumption about the
parties’ expectations” that “contracting parties would
likely have expected a court to have decided [a]
gateway matter” of arbitrability. Rent-A-Ctr., 561
U.S. at 70, n. 1 (internal quotations omitted).
Here, the Third Circuit’s decision departed
from this Court’s jurisprudence regarding delegation
of arbitrability and deepened existing splits in authority on this issue. The Court summarily concluded that the mere incorporation by reference of the
AAA Commercial Rules constituted “clear and unmistakable” evidence of an intent to delegate arbitrability to an arbitrator, sufficient to overcome the
presumption in favor of judicial resolution of such
questions. It reached this conclusion despite the fact
that the plaintiff in this case was an unsophisticated
layperson, who signed an adhesive contract in the
employment context. 2 Under Rent-A-Ctr., the plaintiff’s “expectations” and “intent” could not have been
to delegate arbitrability as he would have no reason
to know that a passing reference to a lengthy, separate set of arbitration rules would commit questions
about the enforceability of the agreement to an arbitrator ̶ something “parties would likely have expected a court to have decided.” Rent-A-Ctr., 561
U.S. at 70, n.1.
––––––––––––––––––––––––
2
The plaintiff was classified as an independent
contractor but contends that he should have been
classified as an employee and brings wage claims
against Defendants.

10
In reaching this conclusion, the Third Circuit’s
opinion in this case departed from a number of decisions from within the Third, Fourth, and Ninth Circuits that find unsophisticated parties do not “clearly
and unmistakably” agree to delegate arbitrability
through mere incorporation of the AAA Rules. See
supra, n. 1. The split in authority embodied by the
Third Circuit’s decision warrants this Court’s review.
Furthermore, the Third Circuit’s opinion in
this case failed to even consider New Jersey state law
on the question of incorporation by reference and
contract formation, which had direct bearing on the
question presented. The court acknowledged that
the question of whether the parties had clearly and
unmistakably delegated questions of arbitrability to
the arbitrator was one of state law, but it then ignored New Jersey Supreme Court precedent in favor
of several federal cases. See App.4a-5a. In failing to
consider New Jersey state law, the Third Circuit
deepened the confusion regarding whether state or
federal law applies to this analysis. Although the
“clear and unmistakable” test has been described as
a “qualification” to the usual rule that “state-law
principles” govern whether parties decided to arbitrate arbitrability 3, First Options, 514 U.S. at 944,
the Third Circuit here did not consider state law regarding incorporation by reference, even though New
Jersey state law directly addressed this issue and
would not find clear and unmistakable delegation
––––––––––––––––––––––––
3
In other words, courts must apply the “clear
and unmistakable” standard, but in doing so, they
must still apply state contract law.

11
here, see Morgan, 225 N.J. at 310-311. The “clear
and unmistakable” standard qualifies state law to
the extent state law does not already contain this
stringent standard for delegation; it does not displace
state contract law where it does. This Court should
grant review to clarify the appropriate body of law
that applies to this analysis.
B. Factual and Procedural Background
Plaintiffs Luis Silva and Ericka Richardson
filed this class action lawsuit in New Jersey state
court on December 8, 2017, on behalf of themselves
and other workers who have performed cleaning services in New Jersey for Defendants. 18-3393, JA03840. These workers, many of whom are non-Englishspeaking immigrants, provide janitorial services to
businesses that negotiate cleaning services accounts
with Defendant Coverall North America Inc. (“Coverall”) and its “master franchisees.” 4 Id. Coverall
classifies these cleaning workers as independent contractor “franchisees.” However, Plaintiffs contend
that they are misclassified under New Jersey state
law and are in fact Coverall’s employees.

––––––––––––––––––––––––
4 “Master franchisees” are intermediary companies that contract directly with cleaning worker
“franchisees” like the plaintiffs in this case. Here,
Defendant Sujol LLC dba Coverall of Southern New
Jersey served as the intermediary “master franchisee” between Plaintiffs and Coverall North America
Inc.

12
In order to begin working for Coverall, Plaintiffs were each required to sign a “Janitorial Franchise Agreement”, which contained an arbitration
clause. 18-3393, JA094, §21; JA137, §26. The
Agreements’ arbitration provisions specify that arbitration shall be subject to the Federal Arbitration Act
(“FAA”) and “the then current Rules of the American
Arbitration Association for Commercial Arbitration.”
18-3393, JA0984; JA137.
The arbitration provision in the Richardson franchise agreement contained an express delegation
clause:
Except as otherwise provided in this Agreement, all controversies, disputes or claims between Coverall, … and Franchisee … arising
out of or related to this Agreement or the validity of this Agreement or any provision therefore (including this arbitration agreement, the
validity and scope of which Coverall and Franchisee acknowledge and agree is to be determined by an arbitrator, not a court) …shall be
submitted promptly for binding arbitration.
18-3393, JA137, § 26(A) (emphasis added). By contrast, the Silva agreement contained no such express
delegation of arbitrability to an arbitrator. 18-3393,
JA094-95, § 21(A).
In the District Court below, Defendants moved
to compel both plaintiffs’ claims to arbitration.
Plaintiffs challenged the enforceability of the arbitration agreements on several grounds. In support of
their Opposition, Plaintiffs each submitted declara-

13
tions attesting to their lack of sophistication. Plaintiff Silva’s declaration explained that he immigrated
to the United States from Peru and that he was not
able to read the agreement because he does not
speak, read, or understand English well. 18-3393,
SA010-11 at ¶¶7-11. Silva was unable to negotiate
any aspect of the franchise agreement, including the
arbitration agreement and the alleged delegation
clause. Id. at ¶12.
The District Court ultimately held that the arbitration provision was unenforceable with respect to
Silva. App.23a-24a. As a predicate issue, the District Court ruled that there was no clear and unmistakable delegation of arbitrability in Silva’s agreement and so the court would have to decide the enforceability of the agreement. App.16a-19a. Unlike
Richardson’s agreement, which contained an express
delegation clause, Silva’s agreement merely incorporated the AAA Rules in passing, and given his lack of
sophistication (as an individual with no command of
the English language, contracting with a multinational business entity that was solely responsible
for drafting the agreement), the District Court found
that such a reference to the AAA rules was not sufficient to evince a clear and unmistakable mutual intent to delegate arbitrability. App.16a-19a, 25-26a.
On appeal, the Third Circuit reversed. App.2a. The
panel reasoned that AAA Commercial Rule 7 provides an arbitrator with authority to decide threshold
questions of arbitrability, and mere incorporation of
these rules by reference was enough to meet the “onerous burden” of showing clear and unmistakable intent to delegate arbitrability, citing Chesapeake Ap-

14
palachia, LLC v. Scout Petroleum, LLC, 809 F.3d
746, 763 (3d Cir. 2016). The court acknowledged at
the outset that “[s]tate law governs” the question of
who determines arbitrability. App.4a. Inexplicably,
the court then ignored state law, as announced by
the New Jersey Supreme Court in Morgan v. Sanford
Brown Inst., 225 N.J. 289 (2016), and instead applied
federal caselaw from other circuits regarding incorporation by reference and contract formation. See
App.6a-7a (citing appellate decisions from the Fifth,
Sixth, Eighth, and Ninth Circuits, which in turn applied federal rather than state law to the delegation
question).
With little elaboration, the Third Circuit also
rejected the notion that the parties’ relative sophistication had any bearing on the analysis:
Silva [argues] that relying on incorporated
rules is unreasonable in agreements involving
“unsophisticated parties.” But that likely
stretches too far and would disregard the
“clear and unmistakable” standard and ignore
even the plainest of delegations.
App.6a. In reaching this conclusion, the Third Circuit did not discuss any of the district court decisions
that have examined in depth party sophistication in
relation to the “clear and unmistakable” standard,
nor did it recognize that other Circuit courts have
noted that incorporation by reference may constitute
“clear and unmistakable” delegation when the parties are sophisticated commercial entities. Nor did
the court consider that, if the parties had truly intended to delegate arbitrability, they could have said

15
so expressly (as was the case in the Richardson
agreement). Indeed, rather than “ignor[ing] even the
plainest of delegations” because one of the parties
was unsophisticated, the District Court below did the
opposite; the court enforced the delegation clause in
the Richardson agreement, notwithstanding the fact
that Richardson was likewise a relatively unsophisticated layperson. The Third Circuit’s decision warrants further review from this Court, as set forth further below.
REASONS FOR GRANTING THE WRIT
I.

The Third Circuit’s Decision Deepens a
Split in Authority Regarding Whether an
Unsophisticated Party Should Be Presumed to “Clearly and Unmistakably” Delegate Arbitrability Through Mere Incorporation of Arbitration Rules

Courts across the country have found that incorporation of the AAA Rules is sufficient to show
“clear and unmistakable” intent to delegate arbitrability to an arbitrator, in cases in which the parties
involved were commercial entities or otherwise sophisticated parties that negotiated the contents of
the contract and would presumably understand its
content. See, e.g., Petrofac, Inc. v. DynMcDermott Petroleum Operations Co., 687 F.3d 671, 673 (5th Cir.
2012) (two oil companies negotiated a contract with
one another); Qualcomm Inc. v. Nokia Corp., 466
F.3d 1366, 1368 (Fed. Cir. 2006) (patent infringement case between two telecommunications corporation); Contec Corp. v. Remote Sol., Co., 398 F.3d 205
(2d Cir. 2005) (corporation sought to compel arbitra-

16
tion of indemnification dispute with manufacturer).
These courts reasoned that such sophisticated parties must have understood the meaning of the terms
they mutually negotiated and agreed upon and
evinced a mutual intent to delegate arbitrability by
incorporating the AAA rules.
Here, by contrast, the plaintiffs argued, and
the District Court agreed, that where one party is
unsophisticated and was presented with an adhesive
agreement in the employment or consumer context,
drafted entirely by a sophisticated corporation, the
mere passing reference to the AAA Rules could not
meet the “onerous burden”, Chesapeake Appalachia,
LLC, 809 F.3d at 763, to show “clear and unmistakable” evidence of an intent to delegate arbitrability to
an arbitrator. App.17a-19a. Plaintiff Silva explained
that he immigrated to the United States from Peru
and that he was not able to read the franchise
agreement containing the arbitration agreement and
delegation clause because he does not speak, read, or
understand English well. 18-3393, SA010-11 at ¶¶711. Silva was unable to negotiate any aspect of the
franchise agreement, including the arbitration
agreement and the alleged delegation clause. Id. at
¶12. He specifically noted that it was his “understanding that legal disputes in this country are decided in governmental courts and not with private
organizations” and that he had no notion that he had
agreed to arbitrate, much less have an arbitrator decide questions of arbitrability. Id. at ¶12. Indeed,
Silva was the embodiment of the reality described by
this Court in First Options: that the question of who
decides arbitrability is “arcane” and that delegating
such questions to an arbitrator goes against the “rea-

17
sonabl[e]” background expectation that “a judge, not
an arbitrator, would decide…who should decide arbitrability.” First Options, 514 U.S. at 945.
The Third Circuit reversed the District Court’s
holding and found that mere incorporation of the
AAA Rules constituted clear and unmistakable evidence of delegation, notwithstanding Silva’s lack of
sophistication. In doing so, it put itself at odds with
at least two Circuit Courts of Appeal that have suggested that where one party is an unsophisticated
layperson, incorporation of the AAA Rules may not
be sufficient to show a “clear and unmistakable” mutual intent to delegate arbitrability. See Simply
Wireless, Inc., 877 F.3d at 529 (the parties’ clear and
unmistakable intent was demonstrated when “two
sophisticated parties expressly incorporate into a contract JAMS Rules”) (emphasis added); Oracle, 724
F.3d at 1075, n. 2 (“We hold that as long as an arbitration agreement is between sophisticated parties to
commercial contracts, those parties shall be expected
to understand that incorporation of the UNCITRAL
rules delegates questions of arbitrability to the arbitrator….We express no view as to the effect of incorporating arbitration rules into consumer contracts.”).
See also district court cases cited supra at note 1.
As these courts have recognized, a distinction
based on the parties’ sophistication makes sense because it is based in reality and is consistent with this
Court’s instruction that the inquiry regarding
whether the parties have clearly and unmistakably
agreed to delegate arbitrability is “an interpretive
rule based on an assumption about the parties’ expectations” that “contracting parties would likely

18
have expected a court to have decided [a] gateway
matter” of arbitrability. Rent-A-Ctr., 561 U.S. at 70,
n. 1 (internal quotations omitted). It is only natural
that the intent and expectations of the parties may
vary depending on the nature of those parties. A
layperson is unlikely to know what the AAA is, much
less know the contents of its Commercial Rules, inside and out. To hold that a passing reference to the
AAA Rules evinces “clear and unmistakable” evidence that an immigrant janitor who does not speak
English well agreed to delegate arbitrability borders
on the absurd. How he could know the contents of
Rule 7, buried within 40 pages of AAA Rules, which
were never presented to him and were merely mentioned in passing in the fine print of a lengthy franchise agreement, defies all reason.
Moreover, the fact that the AAA Rules allow
the arbitrator the authority to decide questions of arbitrability does not mean that the arbitrator must do
so or that the parties “clearly and unmistakably” intended for an arbitrator to exercise that authority.
Given that Silva is not a sophisticated corporate party and is unfamiliar with the AAA and its Rules, it is
patently absurd to expect that he would have read
Rule 7 as requiring that an arbitrator rather than a
court would decide arbitrability.
The Third Circuit regrettably ignored numerous well-reasoned decisions from courts in the Third,
Fourth, and Ninth Circuits that have held that a
cross-reference to the AAA rules does not constitute
“clear and unmistakable” delegation of arbitrability
when unsophisticated parties are involved. As one
court explained, “incorporating forty pages of arbitra-

19
tion rules into an arbitration clause is tantamount to
inserting boilerplate inside of boilerplate, and to conclude that a single provision contained in those rules
amounts to clear and unmistakable evidence of an
unsophisticated party’s intent would be to take ‘a
good joke too far.’ ” Allstate Ins. Co., 171 F. Supp. 3d
at 429 (internal citation omitted); see also Aviles,
2015 WL 9810998, at *6 (“Plaintiff executed the []
agreement at Defendant’s office without the benefit
of counsel, and the parties dispute Plaintiff’s English
language competency. … It would strain credulity to
conclude that Plaintiff held a clear and unmistakable
intent to delegate questions of arbitrability to an arbitrator.”); In re Little, 610 B.R. at 568-69 (“In transactions involving sophisticated parties, it is likely
that the parties are experienced and knowledgeable
on such matters or have retained counsel to review
the agreement or that the parties were otherwise familiar with arbitration rules …The same cannot be
said for consumer transactions….”); Meadows, 144 F.
Supp. 3d at 1078 (“[T]he question is whether the language of an agreement provides ‘clear and unmistakable’ evidence of delegation. To a large corporation
(like Oracle) or a sophisticated attorney (like Brennan), it is reasonable to conclude that it does. But
applied to an inexperienced individual, untrained in
the law, such a conclusion is likely to be much less
reasonable.”); Chong, 2019 WL 1003135, at *10 (“7Eleven cannot dispute that it is more sophisticated
than the plaintiffs. There is certainly no reason to
have any confidence that these parties actually addressed the question of arbitrability.”).
Other Circuit court decisions seem to have
simply assumed that incorporation of arbitration

20
rules always constitutes “clear and unmistakable”
evidence of delegation because the issue of the parties’ relative sophistication was not raised or argued.
See, e.g., Terminix Int'l Co., LP v. Palmer Ranch Ltd.
P'ship, 432 F.3d 1327, 1329 (11th Cir. 2005). Indeed,
it appears that only the Fifth Circuit in Arnold v.
Homeaway, Inc., 890 F.3d 546, directly confronted
this question and explicitly concluded that the parties’ sophistication did not matter. 5 Now, the Third
Circuit decision in this case has joined the Fifth Circuit in expressly concluding that unsophisticated
parties may “clearly and unmistakably” delegate arbitrability through mere incorporation of separate
arbitration rules. These decisions are clearly in tension with the sound reasoning of the many courts cited supra, n. 1. Thus, further review from this Court
is needed to provide clarity on this critical question.
II.

The Third Circuit’s Decision Sharpens a
Circuit Split Over Whether the “Clear and
Unmistakable” Standard is Governed by
State or Federal Law

The Third Circuit decision in this case also
raises an important issue regarding whether courts
should apply federal or state law to the analysis of
whether parties “clearly and unmistakably” delegat––––––––––––––––––––––––
5
In Awuah v. Coverall, 554 F.3d at 12, the First
Circuit appeared to recognize that it was problematic
to presume that unsophisticated parties would understand that a mere cross-reference to the AAA
rules would constitute “clear and unmistakable” delegation, but it felt bound by prior Circuit precedent.

21
ed arbitrability to an arbitrator. Here, the court
acknowledged that “[s]tate law governs” the question
whether there was a valid agreement to delegate
questions of arbitrability to an arbitrator. App.4a.
This holding is consistent with this Court’s decision
in First Options, which noted that “[w]hen deciding
whether the parties agreed to arbitrate a certain
matter (including arbitrability), courts generally…should apply ordinary state-law principles that
govern the formation of contracts.” First Options,
514 U.S. at 944. 6
However, despite stating that state law applies to determine whether the parties here agreed to
have an arbitrator decide arbitrability, the Court did
not cite New Jersey state law, nor acknowledge that
the New Jersey Supreme Court expressly rejected
delegation through reference to arbitration rules, see
Morgan, 225 N.J. 289. Instead, the court relied on
federal decisions to conclude that the mere incorporation by reference of the AAA Commercial Rules
constituted clear and unmistakable evidence of delegation, notwithstanding Silva’s lack of sophistication
vis a vis Defendants.

––––––––––––––––––––––––
6 The “qualification” referred to in First Options is
that parties must provide “clear and unmistakable”
evidence of their intent to delegate. Thus, state law
applies to determine if the parties here agreed to delegate arbitrability to an arbitrator, provided that
state law requires the parties show “clear and unmistakable” evidence of the delegation.

22
The inconsistency and confusion in the Third
Circuit’s opinion regarding which law to apply to the
delegation question had serious consequences in this
case. Had the court followed controlling New Jersey
Supreme Court precedent in Morgan, it clearly would
not have found clear and unmistakable delegation.
In Morgan, the Court considered an arbitration
clause which incorporated the AAA rules, and it ultimately struck the entire agreement, relying on its
seminal opinion in Atalese v. U.S. Legal Services
Corp., 219. N.J. 430 (2014), cert. denied 135 S. Ct.
2804 (2015). The Court held that:
[T]he arbitration provision and purported delegation clause do not meet the requirements of First Options and Atalese
and do not satisfy the elements necessary for the formation of a contract, and
therefore are unenforceable.
Id. at 310-11. Thus, in Morgan, mere incorporation by reference of a separate set of rules
was insufficient to satisfy the requirements of
mutual assent under New Jersey contract law.
Id.; see also Alpert, Goldberg, Butler, Norton &
Weiss, P.C. v. Quinn, 410 N.J. Super. 510, 533
(App. Div. 2009), certif. denied, 203 N.J. 93
(2010) (“In order for there to be a proper and
enforceable incorporation by reference of a
separate document, the document to be incorporated must be described in such terms that
its identity may be ascertained beyond doubt
and the party to be bound by the terms must
have had ‘knowledge of and assented to the
incorporated terms.’”); Bacon v. Avis Budget

23
Group, Inc., 357 F. Supp. 3d 401, 417, 423
(D.N.J. 2018) (“[E]ffective incorporation by
reference requires that, before giving assent by
signing the contract, the renter must have
been able to identify beyond doubt the document that is referred to, and to ascertain the
contents of the relevant terms.”).
The Third Circuit’s contradictory reasoning
evinces the confusion that has been created among
lower courts about how to apply the “clear and unmistakable” rule. Many courts have held that the
“clear and unmistakable” rule is a rule of federal law
and have looked to federal court precedents when determining whether parties delegated arbitrability to
an arbitrator. See, e.g., Blanton, 962 F.3d at 846
(Sixth Circuit described split in authority on the
question of whether the presence of “clear and unmistakable” evidence of delegation should be analyzed under state or federal law and concluding that
the test is governed by federal law); Arnold, 890 F.3d
at 552 (“[T]he Supreme Court has explained that the
clear-and-unmistakable standard is a requirement of
its own creation, framing it as a ‘qualification’ to the
application of ‘ordinary state-law principles that govern the formation of contracts’ and holding that it
would therefore follow its own precedent rather than
Texas state law); GNH Grp., Inc. v. Guggenheim
Holdings, L.L.C., 2020 WL 4287358, at *4 (D. Del.
July 27, 2020) (“[T]he Court is guided by federal law,
since the ‘clear and unmistakable evidence’ standard
is a principle of federal law, not state law”).
Other courts have found that whether the parties agreed to delegate arbitrability is simply another

24
question of contract formation, which is unequivocally guided by state law, with the qualification that any
evidence of delegation must be “clear and unmistakable.” Indeed, this court made clear that a delegation clause is “simply an additional, antecedent
agreement the party seeking arbitration asks the
federal court to enforce”, Henry Schein, 139 S. Ct. at
529, and thus, its enforceability should be governed
by state law, just like the enforceability of the arbitration agreement as a whole. Courts that have
looked to state law view the “clear and unmistakable” rule as a backstop and guiding principle when
applying state law to a delegation clause. See, e.g.,
Wells Fargo Advisors, LLC v. Sappington, 884 F.3d
392, 396 (2d Cir. 2018) (“Applying Missouri’s arbitration and contract law to those arbitration clauses, …
we conclude, for the reasons below, that there is clear
and unmistakable evidence that the parties in both
cases before us intended to arbitrate all questions of
arbitrability…”); Dish Network L.L.C. v. Ray, 900
F.3d 1240, 1245 (10th Cir. 2018) (applying “precedent from both this circuit and the state of Colorado”
to conclude that the parties “clearly and unmistakably … intended for the arbitrator to decide all issues
of arbitrability.”). Thus, for example, where state
law speaks to the incorporation by reference issue (as
New Jersey law does here in the Morgan case), it
should govern the analysis, with the caveat that any
evidence of delegation must be “clear and unmistakable.”
Here, the Third Circuit purported to apply
state law but then seemingly applied federal law instead. In this sense, the opinion itself encapsulates
the Circuit split (and confusion on this issue) de-

25
scribed supra, pp. 22-24, within a single decision.
Indeed, the confusion embodied by the Third Circuit’s illogical reasoning is representative of the confusion of many courts faced with this same question.
This Court should grant the petition for review and
should clarify whether the analysis regarding whether the parties agreed to delegate arbitrability to an
arbitrator is a question of state law, as qualified by
the “clear and unmistakable” rule, or one of purely
federal law. Petitioner submits that New Jersey
state law should have been applied in this case to determine whether the parties “clearly and unmistakably” intended to delegate arbitrability to the arbitrator, and that if it had been properly applied, New
Jersey precedent would dictate that they did not. See
supra, pp. 13-14. For these reasons, further review
from this Court is warranted.
III.

The Questions Presented Are Important,
Recurring, and Ripe for Review

The question of whether parties agreed to delegate questions of arbitrability to the arbitrator is
one of significant importance. After all, arbitration
“is a matter of consent, not coercion.” Stolt-Nielsen
S.A. v. AnimalFeeds Int'l Corp., 559 U.S. 662, 664,
130 S. Ct. 1758, 1763, 176 L. Ed. 2d 605 (2010) (quoting Volt v. Board of Trustees of Leland Stanford Junior Univ., 489 U.S. 468, 109 S. Ct. 1248, 103 L. Ed.
2d 488 (1989)). This Court has already held that determining whether the parties did in fact consent to
have an arbitrator decide questions of arbitrability
requires a heightened showing of “clear and unmistakable evidence.” First Options, 514 U.S. at 944. It

26
is critical that clear, uniform rules apply to meet this
showing.
One issue on which clarity is desperately
needed is for courts to understand the role that the
parties’ relative sophistication should play in determining if mere incorporation of arbitration rules is
sufficient to constitute “clear and unmistakable” evidence of delegation. This question is important for
the potential impact it could have on consumer and
employment disputes in particular. When a layperson signs an adhesive agreement in the consumer or
employment context, which they are unable to negotiate, it strains credulity that a passing reference to a
separate lengthy set of arbitration rules would provide evidence of their intent to delegate arbitrability,
much less “clear and unmistakable” evidence. Failing to take the parties’ sophistication into account
when assessing whether incorporation of arbitration
rules constitutes “clear and unmistakable” evidence
of delegation makes it easier for large companies and
employers to use their superior resources to impose
arbitration on consumers and employees who had no
intention of agreeing to arbitrate gateway questions
of arbitrability.
As this Court has made clear, the default rule
is that courts should decide the enforceability of arbitration agreements; interpreting “ambiguity on the
‘who should decide arbitrability’ point as giving the
arbitrators that power … might too often force unwilling parties to arbitrate a matter they reasonably
would have thought a judge, not an arbitrator, would
decide.” First Options, 514 U.S. at 945. Employees
and consumers may have good reasons for wanting a

27
court to decide arbitrability because allowing arbitrators to decide the bounds of their own jurisdiction
and the enforceability of the very agreement that retains them to serve as arbitrator in the first instance
creates troubling incentives to enforce agreements
that may actually be unconscionable or void. See
Faulkner, Richard and Philip J. Loree Jr., Schein’s
Remand Decision: Should Scotus Review The Provider Rule Incorporation-be-Reference Issue? 38 ALTERNATIVES, 5 (May 2020) at *81-82. Indeed, this Court
has repeatedly held that due process is violated
where decisionmakers have a financial interest in
the outcome of a case. Id. at *82 (collecting cases). 7
This important concern cannot be understated, and a
finding that parties have agreed to allow an arbitrator to decide such issues as the enforceability of their
arbitration agreement should not be reached lightly.
Moreover, courts play an important function in
tempering the tendency to overreach in drafting arbitration agreements by policing agreements that are
unconscionable, fraudulent, or otherwise unenforceable at the outset, before compelling arbitration. Taking this function away from the courts and placing it
––––––––––––––––––––––––
See Tumey v. Ohio, 273 U.S. 510 (1927) (violation
of due process where judge was also the mayor and
was paid from fines he levied); Ward v. Monroeville,
409 U.S. 57 (1972) (violation of due process where
mayor presided over traffic offenses and fines he assessed were paid to the town); Gibson v. Berryhill,
411 U.S. 564, 579 (1973) (board of optometrists disqualified from presiding over a hearing against competing optometrists).

7

28
in the hands of arbitrators is not something that
should be done lightly, as this Court recognized when
it created a “reverse presumption” that courts should
decide such questions. Rent-A-Ctr., 561 U.S. at 79
(quoting First Options, 514 U.S. at 945). By failing to
take a party’s sophistication into account, the Third
Circuit’s decision below makes a mockery of the
“clear and unmistakable” test.
The question presented here is also widely recurrent. Multiple Circuit Courts have confronted the
issue of what role the party’s sophistication should
play in determining whether they agreed to delegate
arbitrability 8, and numerous district courts have
squarely addressed the question as well. 9 This Court
should put the recurrent question to rest by clarifying the law in this area.

––––––––––––––––––––––––
8
Compare Arnold, 890 F.3d at 552 (rejecting the
notion that incorporation of the AAA Rules constitutes clear evidence of intent to delegation only in
cases “involve[ing] negotiated contracts between sophisticated parties” as opposed to cases involving “a
consumer contract of adhesion”); with Oracle Am.,
Inc., 724 F.3d at 1075, n. 2 (9th Cir. 2013) (“We hold
that as long as an arbitration agreement is between
sophisticated parties to commercial contracts, those
parties shall be expected to understand that incorporation of the UNCITRAL rules delegates questions of
arbitrability to the arbitrator…..”) (emphasis added).
9

See supra n. 1.

29
Additionally, clarity is needed regarding
whether courts should look to state or federal law in
making the determination that the parties “clearly
and unmistakably” delegated arbitrability. Resolving this question fairly and consistently requires that
this court weigh in and provide guidance about how
to apply the interpretative rule it created. Conflicting opinions by the Courts of Appeals “encourage and
reward forum shopping,” by allowing parties to bring
suit in one jurisdiction or the other based on how
they want their delegation clause interpreted.
Southland v. Keating, 465 U.S. 1, 15 (1984) (“We are
unwilling to attribute to Congress the intent, . . . to
create a right to enforce an arbitration contract and
yet make the right dependent for its enforcement on
the particular forum in which it is asserted”).
For instance, the Court might hold that state
law governs the enforceability of a delegation clause,
and the “clear and unmistakable” rule serves only as
a guiding principle when applying state law to a delegation clause. In this sense, the “clear and unmistakable” principle would serve as a backstop against
allowing arbitrators to decide the validity of an arbitration agreement without the parties’ clear consent,
but courts would still need to consider state law contract principles regarding mutual assent and contract formation to guide their analysis. See, e.g.,
Wells Fargo Advisors, LLC v. Sappington, 884 F.3d
392, 396 (2d Cir. 2018) (looking to Missouri Supreme
Court decision regarding incorporation by reference
of separate arbitration rules). Alternatively, the
Court might find that the “clear and unmistakable”
rule is one invented by federal courts and that the
body of federal law interpreting it is as far as courts

30
need look for guidance. See, e.g., Arnold, 890 F.3d at
552 (“[T]o the extent our precedent diverges from
Texas law, we follow our own interpretation of the
‘clear and unmistakable’ threshold.”). In many cases
like this one, the difference in which case law is applied may be outcome determinative.
Finally, the issues presented here are clearly
ripe for review. The conflicts among the Circuits
that have arisen on both issues in this case are
squarely presented and require resolution by this
Court. Conflicting interpretations are not likely to
change or evolve meaningfully through additional
decisions in other courts, as the numerous cases cited
herein have exhaustively considered what role the
parties’ sophistication should play in the “clear and
unmistakable” analysis and what law (state or federal) should apply. For all these reasons, the Court
should grant certiorari and provide the Circuit
Courts guidance on this important and increasingly
prevalent issue.

31
CONCLUSION
The petition for a writ of certiorari should be
granted. The Third Circuit’s decision below highlights two critical issues regarding the proper interpretation of delegation clauses in arbitration agreements. Whether an unsophisticated party to an adhesive arbitration agreement “clearly and unmistakably” delegates arbitrability to an arbitrator through
mere incorporation of a separate set of arbitration
rules, and the proper body of law to apply to this inquiry, are both questions of vital importance, which
urgently require this Court’s guidance.
Respectfully submitted,
Shannon Liss-Riordan, Counsel of Record
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
Ravi Sattiraju, Esq.
SATTIRAJU & THARNEY LLP
50 Millstone Road, Building 300, Suite 202
East Windsor, NJ 08520
Anthony Marchetti, Esq.
MARCHETTI LAW, P.C.
317 Delsea Drive
Sewell, NJ 08080
November 2020

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT, FILED APRIL 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-3393, 18-3399
ERICKA RICHARDSON; LUIS A. SILVA, On behalf
of themselves and all other similarly situated persons
v.
COVERALL NORTH AMERICA, INC.;
SUJOL, LLC, DBA Coverall of Southern, NJ;
ABC CORPS. 1-10; JANE & JOHN DOES 1-10,
SUJOL, LLC, DBA Coverall of Southern, NJ,
Appellant in Appeal No. 18-3393,
COVERALL NORTH AMERICA, INC.,
Appellant in Appeal No. 18-3399
On Appeal from the United States District Court
for the District of New Jersey.
(D.C. Civil No. 3:18-cv-00532).
District Judge: Hon. Michael A. Shipp.
November 20, 2019, Argued
April 28, 2020, Filed

2a
Appendix A
Before: CHAGARES, MATEY, and FUENTES,
Circuit Judges.
OPINION*
MATEY, Circuit Judge.
Ericka Richardson and Luis Silva each wanted to
open a commercial cleaning business. So each bought
a franchise from Coverall North America, Inc. (CNA)
through Sujol, LLC d/b/a Coverall of Southern New
Jersey (Sujol). But disagreements followed the signed
agreements, and Richardson and Silva filed a putative
class action alleging they are the Defendants’ employees,
not independent contractors, under New Jersey law. We
do not address who has the better argument, because the
contracts both delegate that authority to an arbitrator.
So we will reverse the District Court’s Order in part and
vacate in part and remand for further consideration.
I.

Background
A.

The Agreements

CNA sells commercial cleaning services. It operates
a franchise business system through geographically
designated territories. Sujol, known as a “master
franchisee,” owns one of these territories and entered into
agreements with Richardson (in 2016) and Silva (in 2005)
* This disposition is not an opinion of the full Court and,
pursuant to I.O.P. 5.7, does not constitute binding precedent.

3a
Appendix A
to operate cleaning businesses. CNA is not a named party
to either the Richardson or Silva agreement (collectively
“the Agreements”). Rather, CNA has an agreement
with Sujol allowing Sujol to sell franchises using CNA’s
trademarks and operating system.
Problems arose in 2017, as Richardson and Silva
began to question their relationship with Sujol and, as a
result, the fees due under the Agreements. So they filed
a putative class action in the Superior Court of Middlesex
County, New Jersey, claiming that while the Agreements
label them as “independent contractors,” they are really
employees under New Jersey law. (App. at 38-48 (citing
N.J. Stat. Ann. § 43:21-19(i)(6)).) Plaintiffs alleged that
Defendants had violated the New Jersey Wage Payment
Law (NJWPL), N.J. Stat. Ann. § 34:11-4.1 et seq., by
allegedly misclassifying them as independent contractors,
charging them for a job, and taking unlawful deductions
from their wages. (App. at 38-48.) CNA and Sujol removed
the matter to federal court, and then moved under
Section 3 of the Federal Arbitration Act (FAA) to stay the
proceedings in favor of arbitration. (App. at 7.)
B. The District Court’s Interpretation of the
Agreements
The District Court considered both the who and the
what: whether the parties agreed to delegate questions
of arbitrability to an arbitrator and, in Richardson’s case,
whether CNA could enforce the arbitration clause. First,
the District Court found the incorporation of the American
Arbitration Association (AAA) Commercial Arbitration

4a
Appendix A
Rules in Silva’s agreement did not satisfy the clarity
needed for delegation, at least with an “unsophisticated
party.” Applying New Jersey law, the District Court
also held that the arbitration agreement did not cover
Silva’s NJWPL claims. Second, the District Court found
Richardson’s agreement with Sujol delegated arbitrability
questions to the arbitrator. But the court determined
that CNA could not invoke the arbitration clause. Timely
appeals by Sujol and CNA followed.1
II. Jurisdiction and the Appellate Standard of Review
The District Court had jurisdiction under 28 U.S.C.
§ 1332(d)(2), and we have jurisdiction under 9 U.S.C.
§ 16(a)(1)(A) to consider an order refusing a stay pending
arbitration under 9 U.S.C. § 3. We largely review that
decision de novo, except for underlying findings of fact,
which we review for clear error. See Morales v. Sun
Constructors, Inc., 541 F.3d 218, 221, 50 V.I. 1069 (3d
Cir. 2008).
III. A nalysis
We use a two-step process to evaluate an arbitration
clause in a contract: 1) whether there is a valid agreement
to arbitrate; and 2) whether that agreement encompasses
the dispute at issue. Jaludi v. Citigroup, 933 F.3d 246,
254 (3d Cir. 2019). State law governs both steps. See id.
1. After the District Court’s Order, Richardson dismissed her
claim against Sujol, leaving only the three claims for which the
Motion had been denied. As such, the part of the Order granting
the Motion as to Richardson’s claim against Sujol is now moot.

5a
Appendix A
at 254-55; In re Remicade (Direct Purchaser) Antitrust
Litig., 938 F.3d 515, 522 (3d Cir. 2019). And parties are free
to assign the resolution of these issues to an arbitrator.
See Opalinski v. Robert Half Int’l Inc., 761 F.3d 326, 335
(3d Cir. 2014). But that delegation requires “clea[r] and
unmistakabl[e]” evidence of the parties’ intent. First
Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944, 115 S.
Ct. 1920, 131 L. Ed. 2d 985 (1995) (alterations in original).
A.

Arbitrability of Silva’s Claim Against Sujol

We start with who decides, as the Defendants argue that
the incorporation of the AAA Rules in Silva’s arbitration
clause constitutes clear and unmistakable evidence that
the parties agreed to delegate arbitrability. We agree.
Silva’s agreement provides that “all controversies,
disputes or claims between Coverall . . . and Franchisee
. . . shall be submitted promptly for arbitration” and that
“[a]rbitration shall be subject to . . . the then current Rules
of the American Arbitration Association for Commercial
Arbitration.” (App. at 94.) Clearly and unmistakably then,
the AAA Rules govern the arbitration of any dispute
between Silva and Sujol. And Rule 7(a) of the AAA Rules
states that “[t]he arbitrator shall have the power to rule
on his or her own jurisdiction, including any objections
with respect to the existence, scope, or validity of the
arbitration agreement or to the arbitrability of any claim
or counterclaim.” American Arbitration Association,
Commercial Arbitration Rules and Mediation Procedures,
Rule 7(a). That provision “ is about as ‘clear and
unmistakable’ as language can get.” Awuah v. Coverall N.
Am., Inc., 554 F.3d 7, 11 (1st Cir. 2009). Nor is the rest of

6a
Appendix A
Silva’s contract so ambiguous or unclear that the meaning
of the AAA Rules becomes murky. 2
Silva responds that relying on incorporated rules is
unreasonable in agreements involving “unsophisticated
parties.” 3 But that likely stretches too far and would
disregard the “clear and unmistakable” standard and
ignore even the plainest of delegations. See Brennan v.
Opus Bank, 796 F.3d 1125, 1130-31 (9th Cir. 2015) (“Our
holding today should not be interpreted to require that
the contracting parties be sophisticated . . . before a
court may conclude that incorporation of the AAA rules
2. While “[v]irtually every circuit to have considered the
issue has determined that incorporation of the [AAA] arbitration
rules constitutes clear and unmistakable evidence that the parties
agreed to arbitrate arbitrability,” we need not determine whether
such a rule always applies. Chesapeake Appalachia, LLC v. Scout
Petrol., LLC, 809 F.3d 746, 763-64 (3d Cir. 2016) (alterations in
original) (quoting Oracle Am., Inc. v. Myriad Grp. A.G., 724 F.3d
1069, 1074 (9th Cir. 2013)). Even where an agreement incorporates
the AAA Rules, a contract might still otherwise muddy the clarity
of the parties’ intent to delegate. For example, in Chesapeake
Appalachia, we held that the mere incorporation of unspecified
AAA rules did not demonstrate an intent to delegate arbitrability
in a class action. We explained that finding clear and unmistakable
evidence in that case required jumping from 1) the contract, to 2)
the reference to unspecified AAA rules, to 3) the AAA Commercial
Rules and, lastly, to 4) the AAA Supplementary rules, which
ultimately vested an arbitrator with the authority to decide class
arbitrability. 809 F.3d at 761. But Silva’s contract requires no such
“daisy-chain” of inferences. Id.
3. Although it is not clear from the record that Silva lacks
sophistication, we will assume as much.

7a
Appendix A
constitutes ‘clear and unmistakable’ evidence of the
parties’ intent [to delegate arbitrability].”); see also McGee
v. Armstrong, 941 F.3d 859, 863, 865-66 (6th Cir. 2019);
Arnold v. Homeaway, Inc., 890 F.3d 546, 548-49, 551-52
(5th Cir. 2018); Green v. SuperShuttle Int’l, Inc., 653 F.3d
766, 767-69 (8th Cir. 2011). Here, the clarity of Silva’s
agreement shows the intent to delegate the arbitrability.
So we will reverse the District Court’s contrary conclusion
and remand.
B. CNA’s Ability to Enforce the Arbitration
Clauses
The District Court held that CNA could not enforce
Richardson’s arbitration clause, because it was not a
third-party beneficiary of Richardson’s agreement with
Sujol. CNA advances several interpretive arguments,
paired with pleas for equitable estoppel, all aimed at
allowing CNA to compel arbitration. Some of these issues
arise for the first time on appeal; others arose before
the District Court only in a cursory manner. All are
best fully considered by the District Court in the first
instance, a path that follows from our conclusions on the
Silva agreement. Because we hold that Silva and Sujol
agreed to delegate arbitrability, we likewise will vacate
the District Court’s determination that Silva’s arbitration
clause does not encompass his claim against Sujol. That
leaves undecided whether CNA can also enforce Silva’s
arbitration clause, an issue not raised in this appeal.
And since CNA’s rights in both the Silva and Richardson
agreements may benefit from discovery, see Guidotti v.
Legal Helpers Debt Resolution, LLC, 716 F.3d 764, 774-76

8a
Appendix A
(3d Cir. 2013), we will vacate the District Court’s Order
regarding whether CNA is a third-party beneficiary of
the Richardson contract.

9a
B
APPENDIX B — Appendix
MEMORANDUM
OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY,
FILED SEPTEMBER 27, 2018
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civil Action No. 18-532 (MAS) (TJB)
September 27, 2018, Decided;
September 27, 2018, Filed
ERICKA RICHARDSON, LUIS A. SILVA,
Plaintiffs,
v.
COVERALL NORTH AMERICA, INC., SUJOL, LLC,
ABC CORPS. 1-10, JANE & JOHN DOES 1-10,
Defendants.
MEMORANDUM OPINION
SHIPP, District Judge
This matter comes before the Court on Defendants
Coverall North America, Inc. (“CNA”) and Sujol, LLC
d/b/a Coverall of Southern, NJ’s (“Sujol”) (collectively,
“Defendants”) Joint Motion to Stay this Action Pending
Mediation and Arbitration. (ECF No. 12.) Plaintiffs
Ericka Richardson (“Richardson”) and Luis Silva (“Silva”)

10a
Appendix B
(collectively, “Plaintiffs”) filed opposition (ECF No. 17)
and Defendants replied (ECF No. 22).1 Plaintiffs also
submitted supplemental authority (ECF Nos. 33, 37) to
which Defendants responded ( ECF No. 35) and provided
additional supplemental authority (ECF No. 34). The
Court heard oral argument on June 22, 2018 (ECF No.
39) and the parties filed supplemental post-argument
submissions (ECF Nos. 41, 42, 43), The Court has carefully
considered the parties’ positions and, for the reasons set
forth below, Defendants’ motion is GRANTED IN PART
and DENIED IN PART.
I.

Background

This putative class action arises out of two purported
Franchise Agreements that Richardson and Silva entered
into with Sujol. CNA is not a party to either Agreement.
(Defs.’ Moving Br. 9-12, ECF No. 12-1; Defs.’ Reply Br.
5, ECF No. 22.)
According to Plaintiffs, Defendants employ workers
to provide cleaning services across the country. (Compl.
¶ 10, ECF No. 1-2.) The workers are required to sign
franchise agreements that classify them as independent
contractors. (Id. ¶ 11.) Plaintiffs allege, however, that
Defendants exercise such significant control over the
1. Also pending before the Court is Plaintiffs’ Motion for Leave
to File a Sur-Reply Brief in Further Opposition to Defendants’
Joint Motion to Stay this Action Pending Mediation and Arbitration.
(ECF No. 27.) This motion is GRANTED. The Court will consider all
arguments before the Court (see ECF Nos. 27 and 30) that it finds
relevant to the resolution of the motion.

11a
Appendix B
workers that they are actually employees. (Id. ¶ 14.) For
example, Plaintiffs allege that Defendants oversee their
work, negotiate directly with customers, reassign business
as Defendants see fit, and retain the right to terminate
employees. (Id. ¶ 14.) Plaintiffs filed this lawsuit in New
Jersey Superior Court alleging that they are employees—
not independent contractors—and are therefore entitled
to the protections of the New Jersey Wage Payment Law
(“NJWPL”). Plaintiffs claim that Defendants misclassified
them as independent contractors, charged them for a job,
and took unlawful deductions from their wages in violation
of N.J.S.A. § 34:11-4.4 et. seq. (Compl. ¶ 35.) Defendants
removed the action to this Court on January 12, 2018
pursuant to the Class Action Fairness Act (ECF No. 1)
and filed the instant motion to “stay pending mediation
and arbitration.” (ECF No. 12.)
Defendants argue that because the Agreements in
question contain mandatory mediation and arbitration
provisions and class-action waivers, the Court should stay
this matter until the conclusion of individual arbitration.
(Defs.’ Moving Br. 1-3, ECF No. 12-1.) Defendants assert
that the issue of arbitrability should be determined by an
arbitrator pursuant to the terms of each Agreement (id.
at 4-6), but if the Court determines it should decide the
threshold issue of arbitrability, it should stay the action
pending mediation and arbitration (id. at 7).
In response, Plaintiffs argue that no valid agreement
exists because the agreement required three signatures
and “Coverall” never signed. (Pls.’ Opp’n Br. 8-11, ECF
No. 17.) Additionally, Plaintiffs argue that even if a valid

12a
Appendix B
agreement exists, the Court should determine arbitrability
because the Silva Agreement does not contain a delegation
clause and the Richardson Agreement’s arbitration clause
is unconscionable. (Id. at 12, 17.) Finally, Plaintiffs argue
that their statutory NJWPL claims are outside the scope
of the arbitration agreements, as their Agreements do not
clearly cover these claims. (Id. at 27.)
II. Legal Standard
When a party files suit in district court “upon any issue
referable to arbitration under an agreement in writing
for such arbitration,” the court “shall on application of
one of the parties stay the trial of the action until such
arbitration has been had in accordance with the terms
of the agreement.” 9 U.S.C. § 3. If a party, in accordance
with its motion to compel arbitration, requests a stay,
the court “[is] obligated under 9 U.S.C. § 3 to grant the
stay once it decide[s] to order arbitration,” and may not,
instead, dismiss the matter. Lloyd v. HOVENSA, LLC,
369 F.3d 263, 269 (3d Cir. 2004).
In order to compel arbitration, a court must determine
that: “(1) a valid agreement to arbitrate exists, and (2) the
particular dispute falls within the scope of the agreement.”
Kirleis v. Dickie, McCainey & Chilcote, P.C., 560 F.3d
156, 160 (3d Cir. 2009) (citations omitted). Courts use
state law principles governing contract formation to
determine the existence of an agreement. First Options
of Chi., Inc. v. Kaplan, 514 U.S. 938, 944, 115 S. Ct. 1920,
131 L. Ed. 2d 985 (1995). A court seeking to determine
whether a particular dispute falls within the scope of
an arbitration agreement “is confined to ascertaining

13a
Appendix B
whether the party seeking arbitration is making a claim
which on its face is governed by the contract.” Medtronic
AVE, Inc. v. Advanced Cardiovascular Sys., Inc., 247 F.3d
44, 55 (3d Cir. 2001) (citations omitted). Because federal
policy favors arbitration, all doubts concerning the scope
of an arbitration agreement should be resolved in favor
of arbitration. Id.
III.

Discussion
A.

Validity of Agreements

Plaintiffs argue that no valid agreement exists because
of the lack of a necessary signature. (Pls.’ Opp’n Br. 11.)
Specifically, Plaintiffs refer to a provision in the Franchise
Agreements, drafted by Defendants, that states:
AGREEMENT SHALL NOT BE VALID
UNLESS SIGNED BY (i) FRANCHISEE,
(ii) AN AUTHORIZED REPRESENTATIVE
OF COVERALL’S REGIONAL OFFICE;
AND (iii) A CORPORATE OFFICER AT
COVERALL’S CORPORATE OFFICE.
(Silva Agreement 25, 2 ECF No. 12-3 (emphasis in
original).)3 On the signature page of each Agreement,
2. The Court cites to the pages of the Silva and Richardson
Agreements using the pagination automatically generated by the
ECF system.
3. The Richardson Agreement contains the same substance but
slightly different language:

14a
Appendix B
a representative of Sujol signed in the signature block
designated for a representative of Coverall’s Regional
Office; however, no signature appears in the signature
block designated for a Coverall corporate officer. (Silva
Agreement 25; Richardson Agreement 25.) Defendants
respond that the Agreements actually define “Coverall”
as “Sujol.” (Defs.’ Reply Br, 5.)4 According to Defendants,
because the single signature of John Landolfi, President
and CEO of Sujol, is actually sufficient for both signature
lines (because Coverall corporate just meant Sujol
corporate), his signature was sufficient to satisfy the
requirement for both (ii) and (iii) of the provision. (Id.) In
other words, Defendants argue that the Agreements do
not explicitly require two distinct signatories, only the
signature of an authorized regional representative and
the signature of a corporate officer, who may be one and
the same person. (Id.) In any event, Defendants argue that
even if the Court were to find three signatures necessary
to bind the parties to the Agreements, Plaintiffs waived
their ability to challenge the Agreements on this ground
now, after years of performing under the contracts and
receiving the benefits of the Agreements. (Id. at 6.)
THIS AGREEMENT SHALL NOT BE VALID
UNLESS SIGNED BY (i) FRA NCHISEE; (ii)
A N AU THORIZED REPRESENTATI V E OF
COVERALL’S REGIONAL SUPPORT CENTER;
AND (iii) AN OFFICER OF COVERALL.
(Richardson Agreement 25, ECF No. 12-4 (emphasis in original).)
4. “[B]oth agreements define the term “Coverall” to mean
Defendant Sujol, not Defendant CNA. Therefore, when the Franchise
Agreements refer to signatures from “Coverall’s” regional and
corporate offices, they are referring to Sujol, not CNA.” (Defs.’ Reply
Br. 5 (internal citations omitted).)

15a
Appendix B
The Court finds Defendants’ argument persuasive.
Both contracts clearly define the term “Coverall” as
“Sujol, LLC” (Defs.’ Moving Br. Ex. A at 2, ECF No.
12-3; Ex. B at 2, ECF No. 12-4), as acknowledged by
Plaintiffs’ briefing (Pls.’ Opp’n Br. 6 n.2). Contractual
definitions establish the meaning of terms within a
contract. 5-24 Corbin on Contracts § 24.8. As the parties
do not appear to contest that Sujol’s President and CEO is
a “corporate officer” and an “authorized representative”
of Sujol’s regional offices (Decl. of John Landolfi ¶¶ 1-2),
the Court finds that the necessary signatures appear on
the Agreements. 5
B. Scope of Arbitration
Having found the existence of an Agreement, the
threshold question is “whether the Court, as opposed to
an arbiter, should determine the scope of the arbitrability
provisions.” Espinal v. Bob’s Discount Furniture, LLC,
No. 17-2854, 2018 U.S. Dist. LEXIS 83705, 2018 WL
2278106, at *5 (D.N.J. May 18, 2018). Defendants argue
that both agreements delegate this responsibility to the
arbitrator. (Defs.’ Moving Br. 6, ECF No. 12-1; Defs.’ Reply
Br. 1-4, ECF No. 22.) Plaintiffs disagree and argue that
the Silva Agreement does not have a delegation clause
and that the Richardson Agreement’s delegation clause
is unconscionable. (Pls.’ Opp’n Br. 12-25.)
5. Further, even if a mandatory signature was missing, the
Court agrees that Plaintiffs’ performance would have waived their
ability to challenge the signature requirement now. See In re Score
Bd., Inc., 238 B.R. 585, 592 (D.N.J. 1999) (citing Selective Builders,
Inc. v. Hudson City Sav. Bank, 137 N.J. Super. 500, 349 A.2d 564
(N.J. Super. Ch. Div. 1975)).

16a
Appendix B
1.

Silva Agreement
a.

Delegation of Arbitrability to the
Arbitrator

“Although the FA A expresses a national policy
favoring arbitration, the law presumes that a court, not
an arbitrator, decides any issue concerning arbitrability.”
Morgan v. Sanford Brown Inst., 225 N.J. 289, 137 A.3d
1168, 1177 (N.J. 2016) (citation omitted). “[T]o overcome
the judicial-resolution presumption, there must be ‘clea[r]
and unmistakabl[e]’ evidence ‘that the parties agreed to
arbitrate arbitrability.’” Id. (quoting AT&T Technologies,
Inc. v. Communications Workers of America, 475 U.S.
643, 649, 106 S. Ct. 1415, 89 L. Ed. 2d 648 (1986)).
The Silva Agreement reads:
all controversies, disputes or claims between
Coverall . . . and Franchisee . . . arising out of
or related to the relationship of the parties,
this Ag reement, any related ag reement
between the parties, and/or any specification,
standard or operating procedure of Coverall,
including those set forth in the Coverall Policy
and Procedure Manual . . . shall be submitted
promptly for arbitration.
(1) Arbitration shall be subject to the Federal
Arbitration Act and, except as otherwise
provided in this agreement or agreed upon
by the parties, the then current Rules of
the American Arbitration Association for

17a
Appendix B
Commercial Arbitration.
...
(Silva Agreement ¶ 21(A).)
Defendants argue that the reference to “the then
current Rules of the [AAA] for Commercial Arbitration”
requires that arbitrability be resolved by an arbitrator.
(Defs.’ Moving Br. 5.) Plaintiffs, however, argue that under
Morgan, the incorporation of these rules does not clearly
and unmistakably delegate arbitrability to the arbitrator.
(Pls.’ Opp’n Br. 13.)6 The Court agrees.
Defendants emphasize language from the Third
Circuit where the Court, without addressing this issue,
noted that “[v]irtually every circuit to have considered
the issue has determined that incorporation of the
[American Arbitration Association] rules constitutes
clear and unmistakable evidence that the parties agreed
to arbitrate arbitrability.” Chesapeake Appalachia,
LLC v. Scout Petroleum, LLC, 809 F.3d 746, 763 (3d Cir.
2016) (citations omitted). As a district court within this
Circuit noted, however, in evaluating the Third Circuit’s
statement, “this apparent consensus among the circuits
is not as clear as it seems.” Allstate Ins. Co. v. Toll Bros.,
Inc., 171 F. Supp. 3d 417, 427-29 (E.D. Pa. 2016). Not only
6. Plaintiffs also argue that the Richardson Agreement is
unenforceable because it violates the National Labor Relations Act.
(Pls.’ Opp’n Br. 26, ECF No. 17.) The Supreme Court, however, has
since resolved this issue in contradiction with Plaintiffs’ position,
rendering the argument moot. See Epic Sys. Corp. v. Lewis, 138 S.
Ct. 1612, 200 L. Ed. 2d 889 (2018).

18a
Appendix B
is this an open question in our Circuit, “[n]early every
circuit to have addressed the issue . . . addressed the
question in the context of arbitration agreements entered
into by organizations, not unsophisticated individuals.”
Id. (collecting cases). This has caused splits among the
district courts within circuits that have “resolved” the
issue because the courts are unsure of how to treat such
a reference in the context of unsophisticated parties. Id.
(discussing split among district courts in Ninth Circuit).
Other Circuits have expressed doubt about their own
decisions when it comes to unsophisticated parties. Notably,
the First Circuit, when evaluating a Coverall Franchise
Agreement, expressed doubt that a cross-reference to
the rules of the American Arbitration Association is clear
and unmistakable evidence that the parties intended to
arbitrate disputes over arbitrability where the plaintiffs
were alleged to be “far from sophisticated business men
and women.” Awuah v. Coverall N. Am., Inc., 554 F.3d 7,
12 (1st Cir. 2009). While the First Circuit felt limited by
precedent (“[i]f the matter were completely open in this
circuit, we are not certain of the outcome”), this Court is
not so constrained. Awuah, 554 F.3d at 10-11.
The Court finds AllState persuasive. A “crossreference to a set of arbitration rules containing a provision
that vests an arbitrator with the authority to determine his
or her own jurisdiction does not automatically constitute
clear and unmistakable evidence that the parties intended
to arbitrate threshold questions of arbitrability—at least
where those parties are unsophisticated.” Allstate Ins. Co.,
171 F. Supp. 3d at 428 (emphasis added) (footnote omitted).
This is not the type of clear and unmistakable evidence

19a
Appendix B
required to effectively delegate the issue of arbitrability.
As the AllState court noted, it is already a difficult
proposition to find that a boilerplate arbitration clause is
“clear and unmistakable evidence of an unsophisticated
party’s intentions.” Id. at 429 (footnote omitted). To allow
the boilerplate to incorporate another forty pages of
arbitration rules “is tantamount to inserting boilerplate
inside of boilerplate.” Id. “[T]o conclude that a single
provision contained in those rules amounts to clear and
unmistakable evidence of an unsophisticated party’s
intent would be to take ‘a good joke too far.”’ Id. (citing
Campbell Soup Co. v. Wentz, 172 F.2d 80, 83 (3d Cir. 1948)).
“[S]ilence or ambiguity in an agreement does not overcome
the presumption that a court decides arbitrability,”
Morgan, 225 N.J. at 304, and the Court finds this crossreference to the AAA rules to be exactly the type of
ambiguity that is insufficient to overcome the presumption.
As to the Silva Agreement, therefore, the Court must
determine the issue of arbitrability.
b.

Scope of Arbitration Provision

The Court must next determine whether Silva’s
statutory claims fall within the scope of the arbitration
provision. The Third Circuit recently articulated a threestep test to determine the arbitrability of New Jersey
statutory claims. Moon v. Breathless Inc., 868 F.3d 209,
214 (3d Cir. 2017). In Moon, the Third Circuit analyzed
three New Jersey Supreme Court cases to determine
the arbitrability of the plaintiffs statutory claims.7 The
7. The Third Circuit in Moon analyzed three decisions from
the New Jersey Supreme Court that interpreted arbitration
agreements and their scope. In Garfinkel v. Morristown Obstetrics

20a
Appendix B
Agreement: (1) “must identify the general substantive
area that the arbitration clause covers”; (2) “must
reference the types of claims waived by the provision”; and
& Gynecology Assocs., 168 N.J. 124, 773 A.2d 665, 672 (N.J.
2001), the New Jersey Supreme Court found that an arbitration
provision in an employment contract covering “any controversy or
claim arising out of, or relating to, this Agreement or the breach
thereof’ was insufficient to cover plaintiff’s statutory claims under
the New Jersey Law Against Discrimination. Id. at 668, 672.
The court found the lack of reference to statutory claims and the
language limiting the scope to claims “arising out of or related to
this agreement” was particularly relevant to its finding that the
plaintiff did not clearly agree to arbitrate statutory claims. Id.
On the other hand, the following year, in Martindale v. Sandvik,
Inc., 173 N.J. 76, 800 A.2d 872, 883 (N.J. 2002), the New Jersey
Supreme Court found that statutory claims were within the scope
of an arbitration agreement that read, “I AGREE TO WAIVE MY
RIGHT TO A JURY TRIAL IN ANY ACTION OR PROCEEDING
RELATED TO MY EMPLOYMENT WITH [EMPLOYER]. I
UNDERSTAND THAT I AM WAIVING MY RIGHT TO A JURY
TRIAL VOLUNTARILY A ND KNOWINGLY, A ND FREE
FROM DURESS OR COERCION.” Id. at 875. The court found that
plaintiffs’ statutory claims were subject to arbitration because the
contract contained no language limiting the scope to disputes about
the agreement and the wording provided sufficient notice that the
statutory claims would be resolved through arbitration. Id. at 88384. Most recently, in Atalese v. U.S. Legal Services Group, L.P., 219
N.J. 430, 99 A.3d 306, 315 (N.J. 2014), a dispute between a customer
and a service provider, the New Jersey Supreme Court reiterated
the prior holdings and found that an arbitration agreement covering
claims “related to this Agreement or related to any performance
of any services related to this Agreement” did not establish that
plaintiff agreed to arbitrate statutory claims because “the wording
of the service agreement did not clearly and unambiguously signal
to plaintiff that she was surrendering her right to pursue statutory
claims in court.” Id. at 310, 316.

21a
Appendix B
(3) “must explain the difference between arbitration and
litigation” so that it clearly and unambiguously establishes
“that there is a distinction between resolving a dispute in
arbitration and in a judicial forum.” Id. (internal citations
omitted). “[T]he clause, at least in some general and
sufficiently broad way, must explain that the plaintiff is
giving up her right to bring her claims in court or have
a jury resolve the dispute.” Id. (quoting Atalese, 99 A.3d
at 315-16).
Plaintiffs argue that the Silva Agreement is silent
as to statutory claims and, therefore, Silva’s claims
cannot be submitted for arbitration. (Pls.’ Opp’n Br. 27.)
Additionally, Plaintiffs argue that the Silva Agreement
fails to explain what arbitration is under Atalese. (Id.
at 31.) Defendants respond that the plain language of
the agreement encompasses Plaintiffs’ statutory claims
and that the Federal Arbitration Act (“FAA”) preempts
the New Jersey state law as it applies to arbitration
agreements. (Defs.’ Reply Br. 11.)
Defendants rely on Kindred Nursing Centers Ltd.
Partnership v. Clark, 137 S. Ct. 1421, 197 L. Ed. 2d
806 (2017), to argue that the New Jersey requirements
impermissibly restrict arbitration provisions. In Kindred,
the Supreme Court invalidated a Kentucky law that
limited the ability of a power of attorney to enter into
an arbitration agreement. Under the law, “a power of
attorney could not entitle a representative to enter into
an arbitration agreement without specifically saying so.”
Kindred, 137 S. Ct. at 1426 (emphasis in original). The
Supreme Court found that the law discriminated against

22a
Appendix B
arbitration agreements because they were not “on equal
footing with all other contracts.” Id. at 1424 (internal
citations omitted).
Defendants argue that the third Moon factor, which
requires that the agreement explain the difference
between arbitration and litigation, is impermissibly antiarbitration under Kindred. (Defs.’ Reply Br. 11-14.)8 The
Court disagrees. In Kindred, the Court found that an
otherwise valid general power of attorney, without any
limitation, was still ineffective to enter into an arbitration
agreement without a specific authorization. Here, the New
Jersey courts are simply ensuring that mutual assent—a
requirement of any valid agreement—exists when a
party waives his or her rights, including when agreeing
to arbitration. Atalese, 99 A.3d at 313-14. Unlike the
requirement at issue in Kindred, New Jersey’s requirement
goes to a more fundamental question of contract formation.
Id. at 313 (“The requirement that a contractual provision
be sufficiently clear to place a consumer on notice that
he or she is waiving a constitutional or statutory right is
not specific to arbitration provisions. Rather, under New
Jersey law, any contractual waiver-of-rights provision
must reflect that [the party] has agreed clearly and
unambiguously to its terms.”) (internal quotation omitted)
(collecting cases). “Arbitration clauses—and other
contractual clauses—will pass muster when phrased in
8. Recognizing that Moon is the controlling Third Circuit
precedent and that Moon was decided after Kindred, Defendants
argue that the issue of preemption is still open in this Circuit because
the parties in Moon did not argue, and the Court did not analyze,
whether the FAA preempts New Jersey’s requirement.

23a
Appendix B
plain language that is understandable to the reasonable
consumer.” Id. at 314. The Court, accordingly, finds that
the New Jersey requirement is not preempted by the FAA
and will next consider whether the arbitration provision
covers Plaintiffs’ statutory claims.
The Silva Agreement provides that claims “arising
out of or related to the relationship of the parties, this
Agreement, any related agreement between the parties,
and/or any specification, standard operating procedure
of Coverall” must be submitted to arbitration. (Silva
Agreement ¶ 21 (A).) This language limits its scope to the
relationship and agreements between the parties and is
silent as to the parties’ statutory rights. See Espinal, 2018
U.S. Dist. LEXIS 83705, 2018 WL 2278106, at *6-9. As
discussed above, New Jersey contract law requires that all
waiver of rights clauses must clearly and unambiguously
express in plain language that a party is waiving its rights.
In the case of arbitration, this language, for instance,
might explain that the plaintiff is giving up her right to
bring a claim in court. The Silva Agreement does not
provide any plain language explanation of the purpose
of this clause or explain that Silva was relinquishing
certain rights by signing the agreement. 9 The Court,
9. Defendants argue, in response to Plaintiffs’ argument
that the agreement is unconscionable, that Plaintiffs received
FTC disclosure documents “about two weeks before they signed
their Franchise Agreements” and the disclosures explain the
consequences of the arbitration clause. The disclosure documents,
which Defendants do not allege were read or signed by Plaintiffs,
read “THE FRANCHISE AGREEMENT REQUIRES THAT
A LL DISAGREEMENTS BE RESOLV ED BY BINDING

24a
Appendix B
consequently, finds that the Silva Agreement did not
adequately put Plaintiff on notice that she was waiving
her statutory rights. Defendants’ motion as to Silva,
accordingly, is denied.
ARBITRATION AND NOT IN A COURT OF LAW. THIS MEANS
THAT YOU AGREE YOU ARE NOT ELIGIBLE FOR TRIAL BY
JURY IN A COURT OF LAW AND YOU FURTHER WAIVE THE
RIGHT TO PROCEED AS A CLASS ACTION.” (Defs.’ Reply Br. 8
(citing Landolfi Decl. ¶¶ 4-5 Ex. A.)) First, the Court notes that there
is no indication this document was signed or otherwise acknowledged.
Second, even if it were, the Franchise Agreement itself expressly
disclaims any representation made in another document:

This is the full agreement of the parties. Any matter
which is not actually written down and included in this
document is not a term of this Agreement. To avoid
any later misunderstanding about the exact terms of
the Agreement, each Party affirms, by signing this
Agreement, that it has not relied on any comment,
promise, or representation not actually included in this
Agreement. By signing this Agreement, the parties
mutually agree that no evidence shall be admitted
in any proceeding as to the existence of any term or
promise claimed to be a part of the Agreement unless
that term is explicitly stated within the Agreement.
DO NOT SIGN THIS AGREEMENT IF YOU ARE
RELYING UPON ANY REPRESENTATION OR
PROMISE NOT STATED IN THIS AGREEMENT.
(Silva Agreement ¶ 24 (emphasis in original).) Defendants, the
drafters of the document, cannot rely on strict language when
it benefits them yet also ask the Court to consider extraneous
documents provided to Plaintiffs, in direct contravention of the
contractual language, to cure the deficiencies in their arbitration
provision.

25a
Appendix B
2.

Richardson Agreement

The Richardson Agreement contains a similar
reference to the AAA rules (Richardson Agreement
¶ 26(A), ECF No. 12-4), which is insufficient for the reasons
discussed above. In addition, however, the Richardson
Agreement also contains the following provision:
Except as otherwise provided in this Agreement,
all controversies, disputes or claims . . . arising
out of or related to this Agreement or the
validity of this Agreement or any provision
thereof (including this arbitration agreement,
the validity and scope of which Coverall and
Franchisee acknowledge and agree is to be
determined by an arbitrator, not a court), . . .
shall be submitted promptly for binding
arbitration.
(Richardson Agreement ¶ 26(A) (emphasis added).)
The Richardson agreement, therefore, contains
language delegating the issue of arbitrability to the
arbitrator, not a court. Plaintiffs argue, however, that
the provision is unconscionable. (Pls.’ Opp’n Br. 12-25.)
Arbitration provisions “maybe invalidated by ‘generally
applicable contract defenses, such as fraud, duress, or
unconscionability.’” Rent-A-Center, W., Inc. v. Jackson,
561 U.S. 63, 68, 130 S. Ct. 2772, 177 L. Ed. 2d 403 (2010)
(emphasis added) (quoting Dr.’s Assocs., Inc. v. Casarotto,
517 U.S. 681, 687, 116 S. Ct. 1652, 134 L. Ed. 2d 902
(1996)). “The defense of unconscionability, specifically,

26a
Appendix B
calls for a fact-sensitive analysis in each case.” Delta
Funding Corp. v. Harris, 189 N.J. 28, 912 A.2d 104, 111
(N.J, 2006). “Courts have generally recognized that the
doctrine of unconscionability involves both ‘procedural’
and ‘substantive’ elements.” Alexander v. Anthony Int’l,
L.P., 341 F.3d 256, 265 (3d Cir. 2003) (citations omitted).
Procedural unconscionability “is generally satisfied if
the agreement constitutes a contract of adhesion.” Id.
Substantive unconscionability “refers to terms that
unreasonably favor one party to which the disfavored
party does not truly assent.” Id. “Courts generally have
applied a sliding-scale approach to determine overall
unconscionability, considering the relative levels of both
procedural and substantive unconscionability.” Delta, 912
A.2d at 111 (citations omitted).
Any unconscionability challenge to an arbitration
provision with a delegation clause must be limited to the
delegation clause itself. See Rent-A-Center W., 561 U.S.
at 73. This is because, if the delegation clause is valid, a
challenge to the broader arbitration agreement is an issue
for the arbitrator to decide. Id. at 72. Here, Richardson
argues that the delegation clause is both procedurally and
substantively unconscionable.
a.

Procedural Unconscionability

Procedural unconscionability pertains to the process
by which an agreement is reached and the form of an
agreement, including the use therein of fine print and
convoluted or unclear language. Harris v. Green Tree Fin.
Corp., 183 F.3d 173, 181 (3d Cir. 1999). Richardson argues
that the delegation clause is procedurally unconscionable

27a
Appendix B
because: (1) it was within a contract of adhesion; (2) the
delegation clause was obscurely buried in the arbitration
agreement; and (3) her relative lack of sophistication left
her with inferior bargaining power under the pressure of
economic compulsion. (Pls.’ Opp’n Br. 18-22.) Defendants
respond that these are attacks on the broader arbitration
provision, not the delegation clause, and, in any event, the
arguments fail because: (1) Richardson was not under
compulsion to buy the franchise; (2) the print of the
Agreement was the same size and format; and (3) Plaintiffs
received the disclosure document advising them that they
waive the right to a jury trial two weeks before signing
the Franchise Agreements. (Defs.’ Reply Br. 4, 7-8.)
The Court does not find the delegation clause
to be procedurally unconscionable. A clause is not
procedurally unconscionable simply because it does not
print the arbitration provision more prominently than
other provisions. Green Tree Fin. Corp., 183 F.3d at
182. While the Court is sympathetic to Richardson’s
argument that the parties were of unequal bargaining
power, she “desperately needed a job,” and that the
“degree of economic compulsion” motivating her to
accept the delegation clause was strong (Pls.’ Opp’n
Br. 19), considering these issues in light of all the other
arguments, the Court is not persuaded that the agreement
is procedurally unconscionable.
b.

Substantive Unconscionability

Richardson also argues that the clause is substantively
unconscionable because: (1) it contains a cost-splitting

28a
Appendix B
provision which would have a “chilling effect” on someone
of modest means contemplating an action; and (2) it
requires the losing party to pay the prevailing party’s
attorney’s fees which would deter the exercise of rights
because someone contemplating a claim could be forced
to incur thousands of dollars in the other side’s fees just
to to arbitrate arbitrability. (Id. at 22-25.)
Defendants respond that Richardson cannot establish
substantive unconscionability because cost-splitting and
attorney’s fees provisions are permitted by New Jersey
law and cost-splitting provisions are a part of the AAA
rules. (Defs.’ Reply Br. 9-10.) These issues, however,
with the exception of the cost-splitting provision, are
arguments about the arbitration provision generally—not
the delegation clause. New Jersey law clearly permits
cost-splitting and attorney’s fees provisions in arbitration
agreements. See N. Bergen Rex Transp., Inc. v. Trailer
Leasing Co., 158 N.J. 561, 730 A.2d 843, 848-49 (N.J. 1999).
As such, the Court cannot find that the delegation clause
is substantively unconscionable.
The Court, therefore, finds the delegation clause to
be valid, with sufficiently clear language to establish that
the parties intended an arbitrator decide the issue of
arbitrability. The Court, however, limits this delegation
of arbitrability to the dispute between Richardson and
Sujol. In connection with the argument that no valid
agreement exists because of the lack of a signature from
CNA, Defendants argue that only Sujol is a party to the
Agreement. The Court found the argument persuasive
with respect to the validity issue, and also finds the

29a
Appendix B
argument relevant here. The Richardson Agreement
specifically provides that “Franchisee and Coverall agree
that arbitration shall be conducted on an individual,
not a class wide basis, and that only Coverall (and
its officers, directors, agents, and/or employees) and
Franchisee (and Franchisee’s owners, officers, directors
and/or guarantors) may be parties to any arbitration
proceeding.” (Richardson Agreement ¶ 26(B) (emphasis
added).) As Defendants are the drafters of the Agreement,
and the proponents of the argument that “Coverall”
means “Sujol” only, the Court finds that the delegation of
arbitrability is limited to Sujol. As to Richardson’s claims
against Coverall, therefore, the Court will determine
the scope of the arbitration agreement, and, as CNA is
not a party, or third party beneficiary, of the arbitration
agreement, the Court finds that Richardson’s claims
against CNA are not subject to arbitration.
Defendants argue that CNA is a “third party
beneficiary” of the agreement and can therefore compel
arbitration even as a non-signatory. (Defs.’ Moving Br.
9-12.) “Generally, arbitration agreements are enforceable
only by signatories.” Jairett v. First Montauk Sec.
Corp., 153 F. Supp. 2d 562, 581 (E.D. Pa. 2001) (citing
Dayhoff Inc. v. H.J. Heinz Co., 86 F.3d 1287, 1296 (3d
Cir. 1996). Notwithstanding this general rule, however,
a non-signatory may be able to compel arbitration under
traditional principles of contract and agency law. E.I.
DuPont de Nemours & Co. v. Rhone Poulenc Fiber &
Resin Intermediates, S.A.S., 269 F.3d 187, 194 (3d Cir.
2001). Under New Jersey law, the parties’ intent is the
key factor in determining whether a party is a third-party

30a
Appendix B
beneficiary to a contract. Kanoff v. Better Life Renting
Corp., No. 03-2363, 2008 U.S. Dist. LEXIS 10994, 2008
WL 442145, at *5 (D.N.J. Feb. 14, 2008). “Whether a third
party is an intended beneficiary or merely an incidental
beneficiary to the contract involves construction of the
parties’ intent, gleaned from reading the contract as a
whole in light of the circumstances under which it was
entered.” Shadowbox Pictures, LLC v. Glob. Enters.,
Inc., No. 05-2284, 2006 U.S. Dist. LEXIS 1135, 2006
WL 120030, at *8 (E.D, Pa. Jan. 11, 2006) (citing Jones v.
Aetna Cas. & Sur. Co., 26 Cal. App. 4th 1717, 33 Cal. Rptr.
2d 291, 296 (Cal. Ct. App. 1994)); see also Mut. Benefit
Life Ins. Co. v. Zimmerman, 783 F. Supp. 853, 866-67
(D.N.J. 1992) (The contract must “be made for the benefit
of said third party within the intent and contemplation of
the contracting parties. Unless such a conclusion can be
derived from the contract or surrounding facts, a third
party has no right of action under that contract despite
the fact that he may derive an incidental benefit from its
performance.”).
In support of their argument that CNA is a third
party beneficiary, Defendants argue that the Agreements
recognize that Sujol and CNA are parties to a Master
Franchise Agreement. (Defs.’ Moving Br. 11-12.) This,
however, is irrelevant to whether Plaintiffs and Sujol
intended CNA to be a beneficiary of their contract. Next,
Defendants argue that Plaintiffs’ allegations target both
Sujol and CNA without distinction, so that the claims are
inevitably intertwined. (Defs.’ Moving Br. 11.) This, again,
however, is immaterial to the third-party beneficiary
analysis. Finally, Defendants point to several places

31a
Appendix B
where the Agreement “references . . . CNA by name.”
(Id.) For example, Defendants point to provisions that
explain Coverall marks are the property of CNA, that
CNA licenses the use of its name and mark, and that Sujol
is sub-licensing the use of CNA’s trademarks and system.
(Id. at 11-12.) These references, however, are not the type
of references that would evidence intent to make CNA a
third-party beneficiary of the contract. See, e.g., Torres v.
Simpatico, Inc., 995 F. Supp. 2d 1057, 2014 WL 409157, at
*5 (E.D. Mo. 2014) (finding third party beneficiary status
where, among other provisions benefiting third party nonsignatories, the portion of the agreement that contained
the arbitration provision recited that “it is intended to
benefit and bind certain third party non-signatories”).
There is no clear evidence here that would allow the Court
to find that the parties intended CNA to be a third-party
beneficiary of the agreement. Further, even if CNA were
a third-party beneficiary, the strict contractual language
limiting the ability of any third party to participate in
arbitration undermines Defendants’ argument that CNA
be pennitted to compel arbitration.10 The Court, therefore,
10. To the extent this motion also requested that the Court
compel mediation, Defendants have not set forth any case law that
would suggest that is an appropriate remedy in this situation or at
this time. To the extent that Defendants believe Plaintiffs breached
the Agreements by failing to first submit the dispute to mediation,
such a claim can form the basis for a breach of contract claim, but
such a claim is not asserted (presumably because Defendants believe
such a dispute must be submitted to an arbitrator). Further, if it was
asserted, there is no evidence that the remedy of specific performance
on a breach of contract claim is appropriate in this context. Unlike
arbitration, which enjoys a heightened and deferential status
pursuant to the FAA, the parties have not cited any authority or
cases that support compelling mediation.

32a
Appendix B
compels arbitration between Richardson and Sujol on the
issue of whether the statutory dispute is covered by the
arbitration provision, and stays this matter pending the
outcome of the arbitration.
IV. Conclusion
For the reasons set forth above, Defendants’ Joint
Motion to Stay this Action Pending Mediation and
Arbitration is granted in part and denied in part. An order
consistent with this Opinion will be entered.
/s/ Michael A. Shipp
Michael A. Shipp
United States
District Judge
Dated: September 27, 2018

33a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT, FILED JUNE 30, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-3393
ERICKA RICHARDSON; LUIS A. SILVA, On behalf
of themselves and all other similarly situated persons
v.
COVERALL NORTH AMERICA, INC.; SUJOL, LLC,
DBA Coverall of Southern, NJ; ABC CORPS. 1-10;
JANE & JOHN DOES 1-10
SUJOL, LLC, DBA Coverall of Southern, NJ,
Appellant in Appeal No. 18-3393
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil No. 3:18-cv-00532)
District Judge: Hon. Michael A. Shipp
PETITION FOR REHEARING

34a
Appendix C
BEFORE: SMITH, Chief Judge, and MCKEE,
AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
and FUENTES,* Circuit Judges
The petition for rehearing filed by Appellees Ericka
Richardson and Luis A. Silva in the above-captioned
matter has been submitted to the judges who participated
in the decision of this Court and to all other available
circuit judges of the Court in regular active service. No
judge who concurred in the decision asked for rehearing,
and a majority of the circuit judges of the Court in
regular active service who are not disqualified did not
vote for rehearing by the Court en banc. It is now hereby
ORDERED that the petition is DENIED.
BY THE COURT,
/s/ Paul B. Matey		
Circuit Judge
Dated: June 30, 2020

* Judge Fuentes’s vote is limited to panel rehearing only.

35a
Appendix AND
D
APPENDIX D — STATUTES
REGULATIONS
9 U.S.C.A. § 2, 9 U.S.C.A. § 3, 9 U.S.C.A. § 4 AND
R-7. JURISDICTION
9 U.S.C.A. § 2
§ 2. Validity, irrevocability, and enforcement
of agreements to arbitrate
Currentness
A written provision in any maritime transaction or a
contract evidencing a transaction involving commerce to
settle by arbitration a controversy thereafter arising out
of such contract or transaction, or the refusal to perform
the whole or any part thereof, or an agreement in writing
to submit to arbitration an existing controversy arising out
of such a contract, transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.
CREDIT(S)
(July 30, 1947, c. 392, 61 Stat. 670.)
Notes of Decisions (3702)
9 U.S.C.A. § 2, 9 USCA § 2
Current through P.L. 116-158.

36a
Appendix D
9 U.S.C.A. § 3
§ 3. Stay of proceedings where issue
therein referable to arbitration
Currentness
If any suit or proceeding be brought in any of the
courts of the United States upon any issue referable
to arbitration under an agreement in writing for such
arbitration, the court in which such suit is pending,
upon being satisfied that the issue involved in such suit
or proceeding is referable to arbitration under such an
agreement, shall on application of one of the parties stay
the trial of the action until such arbitration has been had
in accordance with the terms of the agreement, providing
the applicant for the stay is not in default in proceeding
with such arbitration.
CREDIT(S)
(July 30, 1947, c. 392, 61 Stat. 670.)
Notes of Decisions (889)
9 U.S.C.A. § 3, 9 USCA § 3
Current through P.L. 116-158.

37a
Appendix D
9 U.S.C.A. § 4
§ 4. Failure to arbitrate under agreement;
petition to United States court having jurisdiction
for order to compel arbitration; notice and service
thereof; hearing and determination
Currentness
A party aggrieved by the alleged failure, neglect, or
refusal of another to arbitrate under a written agreement
for arbitration may petition any United States district court
which, save for such agreement, would have jurisdiction
under title 28, in a civil action or in admiralty of the subject
matter of a suit arising out of the controversy between
the parties, for an order directing that such arbitration
proceed in the manner provided for in such agreement.
Five days’ notice in writing of such application shall be
served upon the party in default. Service thereof shall
be made in the manner provided by the Federal Rules
of Civil Procedure. The court shall hear the parties, and
upon being satisfied that the making of the agreement
for arbitration or the failure to comply therewith is not in
issue, the court shall make an order directing the parties
to proceed to arbitration in accordance with the terms
of the agreement. The hearing and proceedings, under
such agreement, shall be within the district in which the
petition for an order directing such arbitration is filed. If
the making of the arbitration agreement or the failure,
neglect, or refusal to perform the same be in issue, the
court shall proceed summarily to the trial thereof. If
no jury trial be demanded by the party alleged to be in

38a
Appendix D
default, or if the matter in dispute is within admiralty
jurisdiction, the court shall hear and determine such issue.
Where such an issue is raised, the party alleged to be in
default may, except in cases of admiralty, on or before the
return day of the notice of application, demand a jury trial
of such issue, and upon such demand the court shall make
an order referring the issue or issues to a jury in the
manner provided by the Federal Rules of Civil Procedure,
or may specially call a jury for that purpose. If the jury
find that no agreement in writing for arbitration was made
or that there is no default in proceeding thereunder, the
proceeding shall be dismissed. If the jury find that an
agreement for arbitration was made in writing and that
there is a default in proceeding thereunder, the court shall
make an order summarily directing the parties to proceed
with the arbitration in accordance with the terms thereof.
CREDIT(S)
(July 30, 1947, c. 392, 61 Stat. 671; Sept. 3, 1954,
c. 1263, § 19, 68 Stat. 1233.)
Notes of Decisions (1252)
9 U.S.C.A. § 4, 9 USCA § 4
Current through P.L. 116-158.

39a
Appendix D
R-7. Jurisdiction
(a) The arbitrator shall have the power to rule on his or
her own jurisdiction, including any objections with
respect to the existence, scope, or validity of the
arbitration agreement or to the arbitrability of any
claim or counterclaim.
(b) The arbitrator shall have the power to determine
the existence or validity of a contract of which an
arbitration clause forms a part. Such an arbitration
clause shall be treated as an agreement independent
of the other terms of the contract. A decision by the
arbitrator that the contract is null and void shall not
for that reason alone render invalid the arbitration
clause.
(c) A party must object to the jurisdiction of the arbitrator
or to the arbitrability of a claim or counterclaim no
later than the filing of the answering statement
to the claim or counterclaim that gives rise to the
objection. The arbitrator may rule on such objections
as a preliminary matter or as part of the final award.

